<html>
<title> - COMPILATION OF HEARINGS AND MARKUPS</title>
<body><pre>[Senate Hearing 112-770]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-770
 
                  COMPILATION OF HEARINGS AND MARKUPS 

=======================================================================

                          HEARINGS AND MARKUPS

                               before the

                           COMMITTEE ON RULES
                           AND ADMINISTRATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                       FIRST AND SECOND SESSIONS

                               __________

     FEBRUARY 17, 2011; MARCH 1, 2011; MAY 11, 2011; JUNE 29, 2011;
                   MARCH 29, 2012; AND APRIL 25, 2012

                               __________

    Printed for the use of the Committee on Rules and Administration


         Available via the World Wide Web: http://www.fdsys.gov


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

80-927 PDF                       WASHINGTON : 2014 

  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
        DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 



                 COMMITTEE ON RULES AND ADMINISTRATION

                             FIRST SESSION

                 CHARLES E. SCHUMER, New York, Chairman

DANIEL K. INOUYE, Hawaii             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
RICHARD J. DURBIN, Illinois          THAD COCHRAN, Mississippi
BEN NELSON, Nebraska                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             SAXBY CHAMBLISS, Georgia
MARK L. PRYOR, Arkansas              PAT ROBERTS, Kansas
TOM UDALL, New Mexico                RICHARD SHELBY, Alabama
MARK R. WARNER, Virginia             ROY BLUNT, Missouri
PATRICK LEAHY, Vermont

                 Jean Parvin Bordewich, Staff Director
               Mary Suit Jones, Republican Staff Director

                Jennifer Griffith, Deputy Staff Director
                      Jason A. Abel, Chief Counsel
        Adam D. Ambrogi, Administrative and Legislative Counsel
                 Veronica Gillespie, Elections Counsel
   Carole Blessington, Administrative Assistant to the Staff Director
                          Sonia Gill, Counsel
                       Julia Richardson, Counsel
                  Josh Brekenfeld, Professional Staff
                    Lauryn Bruck, Professional Staff

             Shaun Parkin, Republican Deputy Staff Director
                Paul Vinovich, Republican Chief Counsel
             Michael Merrell, Republican Elections Counsel
               Abbie Platt, Republican Professional Staff
               Trish Kent, Republican Professional Staff
            Rachel Creviston, Republican Professional Staff

                     Lynden Armstrong, Chief Clerk
                  Matthew McGowan, Professional Staff

Note: Archived webcasts of all hearings and an electronic version of 
    this report are available at http://rules.senate.gov.

                 COMMITTEE ON RULES AND ADMINISTRATION

                             SECOND SESSION

                 CHARLES E. SCHUMER, New York, Chairman

DANIEL K. INOUYE, Hawaii             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
RICHARD J. DURBIN, Illinois          THAD COCHRAN, Mississippi
BEN NELSON, Nebraska                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             SAXBY CHAMBLISS, Georgia
MARK L. PRYOR, Arkansas              PAT ROBERTS, Kansas
TOM UDALL, New Mexico                RICHARD SHELBY, Alabama
MARK R. WARNER, Virginia             ROY BLUNT, Missouri
PATRICK LEAHY, Vermont

                 Jean Parvin Bordewich, Staff Director
               Mary Suit Jones, Republican Staff Director

                Joshua Brekenfeld, Deputy Staff Director
              Kelly Fado, Director of Operations Oversight
                     Adam D. Ambrogi, Chief Counsel
                 Veronica Gillespie, Elections Counsel
            Sharon Larimer, Assistant to the Staff Director
                       Julia Richardson, Counsel
                  Abbie Sorrendino, Professional Staff
                      Nicole Tatz, Staff Assistant

             Shaun Parkin, Republican Deputy Staff Director
                Paul Vinovich, Republican Chief Counsel
             Michael Merrell, Republican Elections Counsel
              Lindsey Ward, Republican Professional Staff
               Trish Kent, Republican Professional Staff
            Rachel Creviston, Republican Professional Staff

                     Lynden Armstrong, Chief Clerk
                  Matthew McGowan, Professional Staff



                            C O N T E N T S

                              ----------                              

                           February 17, 2011
                         ORGANIZATIONAL MEETING
                         Opening Statement of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................     1
Hon. Lamar Alexander, Ranking Member, a U.S. Senator from the 
  State of Tennessee.............................................     2
                              ----------                              

                             March 1, 2011

EXECUTIVE SESSION ON OMNIBUS BUDGET FOR SENATE COMMITTEES........     6
                              ----------                              

                              May 11, 2011

EXECUTIVE BUSINESS MEETING.......................................     7

           Statements Submitted by Members of the Committee:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York, on consideration of William J. Boarman, of 
  Maryland to be the Public Printer..............................    11
Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York, on S. Res 116, to provide for expedited Senate 
  consideration of certain nominations subject to advice and 
  consent........................................................    11
Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York, on S. 739, a bill to authorize the Architect of 
  the Capitol to establish battery recharging stations for 
  privately owned vehicles in parking areas under the 
  jurisdiction of the Senate at no net cost to the Federal 
  Government.....................................................    12
Hon. Tom Udall, Opening Statement, on S. Res. 116................    12

                   MATERIALS SUBMITTED FOR THE RECORD

Hon. Joseph Lieberman, Chairman, a U.S. Senator from the State of 
  Connecticut and Hon. Susan Collins, Ranking Member, a U.S. 
  Senator from the State of Maine on S. Res. 116.................    15
                              ----------                              

                             June 29, 2011
 HEARING ON NOMINATION OF GINEEN BRESSO, THOMAS HICKS, AND MYRNA PEREZ 
          TO BE MEMBERS OF THE ELECTION ASSISTANCE COMMISSION

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................    17
Hon. Lamar Alexander, Ranking Member, a U.S. Senator from the 
  State of Tennessee.............................................    17
Hon. Thad Cochran, a U.S. Senator from the State of Mississippi..    19
Hon. Roy Blunt, a U.S. Senator from the State of Missouri........    20

                             Testimony of:

Ms. Gineen Bresso, Nominee for Member, Election Assistance 
  Commission.....................................................    21
Mr. Thomas Hicks, Nominee for Member, Election Assistance 
  Commission.....................................................    21
Ms. Myrna Perez, Nominee for Member, Election Assistance 
  Commission.....................................................    22

                        Prepared Statements of:

Ms. Gineen Bresso, Nominee for Member, Election Assistance 
  Commission.....................................................    27
Mr. Thomas Hicks, Nominee for Member, Election Assistance 
  Commission.....................................................    30
Ms. Myrna Perez, Nominee for Member, Election Assistance 
  Commission.....................................................    34

                   Material Submitted for the Record:

Hon. Michael E. Capuano, a U.S. Congressman from the State of 
  Massachusetts..................................................    39
                              ----------                              

                             March 29, 2012
  HEARING--S. 2219, THE DEMOCRACY IS STRENGTHENED BY CASTING LIGHT ON 
        SPENDING IN ELECTIONS ACT OF 2012 (DISCLOSE ACT OF 2012)
                         Opening Statements of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................    40
Hon. Lamar Alexander, Ranking Member, a U.S. Senator from the 
  State of Tennessee.............................................    42
Hon. Dianne Feinstein, a U.S. Senator from the State of 
  California.....................................................    43
Hon. Roy Blunt, a U.S. Senator from the State of Missouri........    44
Hon. Richard Durbin, a U.S. Senator from the State of Illinois...    44
Hon. Tom Udall, a U.S. Senator from the State of New Mexico......    45
Hon. Patrick Leahy, a U.S. Senator from the State of Vermont.....    47

                             Testimony of:

Mr. Fred Wertheimer, Founder and President, Democracy 21.........    49
Mr. David Keating, President, Center for Competitive Politics....    50
Mr. Richard L. Hansen, Chancellor's Professor of Law and 
  Political Science, University of California-Irvine School of 
  Law............................................................    52

                        Prepared Statements of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................    68
Hon. Tom Udall, a U.S. Senator from the State of New Mexico......    70
Mr. Fred Wertheimer, Founder and President, Democracy 21.........    73
Mr. David Keating, President, Center for Competitive Politics....    87
Mr. Richard L. Hansen, Chancellor's Professor of Law and 
  Political Science, University of California-Irvine School of 
  Law............................................................    97

                  Materials Submitted for the Record:

Statement submitted by Senator Sheldon Whitehouse, a U.S. Senator 
  from the State of Rhode Island.................................   129
Statement submitted by American Civil Liberties Union (ACLU).....   131
Statement submitted by Alliance for Justice......................   137
Statement submitted by Americans for Campaign Reform.............   141
Statement submitted by Mr. Adam Skaggs, Senior Counsel, and Mimi 
  Marziani, Counsel, Brennan Center for Justice at NYU School of 
  Law............................................................   143
Statement submitted by Coalition for Accountability in Political 
  Spending (CAPS)................................................   154
Statement submitted by Common Cause..............................   157
Statement submitted by Demos Ideas & Action......................   158
Statement submitted by IRRC Institute............................   193
Statement submitted by Professor Richard Briffault, Columbia Law 
  School.........................................................   287
Statement submitted by League of Women Voters....................   317
Statement submitted by Professor David M. Primo, University of 
  Rochester......................................................   320
Statement submitted by Professor John C. Coats IV, Harvard Law 
  School.........................................................   348
Statement submitted by Public Citizen............................   409
Statement submitted by Mr. Ron Freund, Emeryville, CA, Fr. 
  Charles W. Dahm, Chicago, IL, Ms. Tamara Schiller, Chicago, IL, 
  Mr. Norman Bannor, Chicago, IL, Ms. Linda Williams, Deerfield, 
  IL, Ms. Margot Worfolk, Naperville, IL, Mr. Joe Houston, 
  Naperville, IL, Ms. Laura Tye, Chicago, IL, and Mr. James Tye, 
  Chicago, IL....................................................   414
Statement submitted by Professor Ciara Torres-Spellisey, Stetson 
  University College of Law......................................   417
Statement submitted by the Campaign Legal Center.................   458
                              ----------                              

                             April 25, 2012
           HEARING--THE SENATE CAMPAIGN DISCLOSURE PARITY ACT
                         Opening Statements of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................   463
Hon. Lamar Alexander, Ranking Member, a U.S. Senator from the 
  State of Tennessee.............................................   464

                             Testimony of:

Hon. Jon Tester, a U.S. Senator from the State of Montana........   465
Hon. Nancy Erickson, Secretary of the U.S. Senate................   466
Mr. Paul Ryan, the Campaign Legal Center.........................   468

                        Prepared Statements of:

Hon. Nancy Erickson, Secretary of the U.S. Senate................   471
Mr. Paul Ryan, the Campaign Legal Center.........................   474


                         ORGANIZATIONAL MEETING

                              ----------                              


                      THURSDAY, FEBRUARY 17, 2011

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:33 p.m., in 
Room SR-301, Russell Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the Committee, presiding.
    Present: Senators Schumer, Inouye, Nelson, Pryor, Udall, 
Warner, Leahy, Alexander, Cochran, Shelby, and Blunt.
    Staff Present: Jean Bordewich, Staff Director; Jennifer 
Griffith, Deputy Staff Director; Jason Abel, Chief Counsel; 
Adam Ambrogi, Administrative and Legislative Counsel; Carole 
Blessington, Assistant to the Staff Director; Sonia Gill, 
Counsel; Julia Richardson, Counsel; Lauryn Bruck, Professional 
Staff; Lynden Armstrong, Chief Clerk; Matthew McGowan, 
Professional Staff; Mary Suit Jones, Republican Staff Director; 
Shaun Parkin, Republican Deputy Staff Director; Paul Vinovich, 
Republican Chief Counsel; Michael Merrell, Republican Counsel; 
Abbie Platt, Republican Professional Staff; Trish Kent, 
Republican Professional Staff; and Rachel Creviston, Republican 
Professional Staff.

              OPENING STATEMENT OF SENATOR SCHUMER

    Chairman Schumer. The Rules Committee will come to order. 
Good afternoon, and I would like to welcome my colleagues to 
the first Rules Committee meeting of the 112th Congress, and 
the first thing I want to say is how much I look forward to 
working with our new Ranking Member, Senator Alexander. He has 
been a great member of this Committee, and as you know, he and 
I spent a lot of time with our two Leaders, Reid and McConnell, 
trying to figure out rules changes, and he was always smart and 
gracious and willing to try and work together. And I know we 
will be able to do that on many issues as we move forward.
    On the Republican side, we have two additional new members. 
First we have Senator Blunt of Missouri, who is here; and then 
we have the two new kids on the block: Senator Leahy and 
Senator Shelby, who probably have at least 60 years of 
seniority in the Senate together, but they are seated--they 
wanted to remember what it was like to sit at the very end, and 
here they are. But I have been sitting at the other end of 
Senator Leahy's Judiciary Committee for a long time, and if I 
can be half as good a Chairman as he is, I will be happy.
    Each of our new members, of course, brings a wealth of 
experience, and I look forward to their participation on the 
Committee.
    This year, we have a number of important issues to 
consider: Senate administration, oversight of legislative and 
executive branch agencies, legislation, Presidential 
nominations, and the Senate rules and procedures. And as I 
mentioned, Senator Alexander and I have already worked closely 
together on the changes to the Senate rules and procedures that 
were adopted last month. We are continuing to work with the 
Homeland Security and Governmental Affairs Committee on 
reducing the number of Presidential appointments that require 
confirmation, and other members of the Committee, especially 
Senator Udall, who is here, played key roles in these efforts 
as well, so we thank him for his many efforts.
    Senator Alexander and I will work with other members, and 
we will try to be as bipartisan or nonpartisan as possible, 
depending on the time, on issues of interest to you. As Senator 
Udall can tell you, the whole push for rules changes began when 
he early on last year came over and said, ``Why don't we have 
some hearings?'' And the rest is, as they say, history. So that 
is an open invitation to any member of this Committee on either 
side. If there are particular issues you are interested in 
working on, having hearings about, please do not be shy. Let us 
know.
    So now I want to turn this over to my friend and the new 
Ranking Member of this Committee, Senator Alexander, for 
opening remarks, and then anyone else who wishes to make some 
remarks, feel free, and maybe particularly this Committee being 
so novel, we welcome the junior members making remarks even on 
their first day.
    Senator Alexander?

             OPENING STATEMENT OF SENATOR ALEXANDER

    Senator Alexander. Thank you. Thanks, Chuck. This is a real 
honor for me to not just be on the Committee but to be the 
Ranking Member. In many ways, this is the most important 
Committee in the Senate because it has a particular 
responsibility for preserving the Senate as an institution--an 
institution that deals with the most important issues facing 
our country and does so in a way that preserves minority 
rights. And so I take that seriously, and that is the reason I 
asked to be on the Committee to begin with.
    Second, I appreciate the chance to work with Chuck Schumer. 
We have had a busy beginning because of the good work that 
Senator Udall and others did in raising some questions about 
the operation of the Senate. We had a good debate after good 
hearings here. And I think while they did not get everything 
they proposed, which is usual in the Senate, they created an 
environment in which we made some real progress in not just 
changing Senate rules but changing Senate behavior, at least to 
begin with.
    So we are off to a good beginning. They have made a real 
contribution, and we are in the midst of some important 
changes.
    I look forward to the legislation that we all worked on 
together to strengthen the Senate in two ways. One was to make 
it easier for any President to staff his or her administration. 
President Kennedy I think had 250 Presidential appointments. 
President Obama has nearly 1,500 confirmed appointments, which 
is too many. And, second, there is the phenomenon of innocent 
until nominated, the idea that we take otherwise respectable 
Americans and the President invites them to serve in his 
administration, and they get drawn through a gauntlet of 
confusing forms that turns them into a criminal by the time 
they are confirmed or not confirmed.
    So we are working on both problems with the support of both 
Leaders and the support of a lot of people, and working on it 
with Chuck has been a real good experience because he is 
direct, hard-working, and, I have found, pleasant to work with.
    Finally, I want to welcome----
    Chairman Schumer. Surprise, surprise, surprise.
    Senator Alexander. No, no, no. About all I need to know is 
where you are, and it is never hard to find that out from you.
    [Laughter.]
    Senator Alexander. I would say that our newest members must 
be the most experienced new members of the Committee in the 
Senate, maybe in Senate history, I mean, Senator Shelby and 
Senator Leahy to begin with, and Senator Blunt is no rookie. He 
has been the whip of the House of Representatives, one of most 
accomplished new members of the Senate that has come here in a 
long, long time.
    So I am delighted to be on the Committee. I look forward to 
working with Chuck. We have got some important issues to 
finish.
    I would just say, Chuck, that we hope to get the 
legislation we are working on up and going when we come back 
from recess and move it through the Senate and have something 
to be proud of.
    Chairman Schumer. Great. Well, thank you, Senator 
Alexander, and I do truly look forward to working with you.
    Does anyone else want to make an opening statement? We have 
nine. We are waiting for Senator Durbin who is evidently on his 
way. Very nice of him to come. Oh, Senator Inouye is here, our 
great leader. So we have ten.
    Why don't we go forward? And then anyone who wants to make 
an opening statement can do so afterwards, unless our new 
members would like to say something, since among them they 
probably have over 100 years of legislative experience. 
Wouldn't you say? Each of you has been in office at least 30 
years, in elected office.
    [Informal discussion followed before continuing the 
Organizational Meeting business.]
    Senator Leahy. Thirty-seven, but Senator Inouye has been 
here longer.
    Chairman Schumer. These are our new members, Mr. Chairman, 
that young fellow down there and this young guy right here.
    Please, Senator Shelby.
    Senator Shelby. Mr. Chairman, I do not need a chair today 
to sit in, but if I do, can I come straight to the Chairman on 
that request?
    Chairman Schumer. Absolutely. I have served under not 
Senator Blunt, but I have been a member when Senator Leahy has 
been Chairman, and still is, of the Judiciary Committee, and a 
member of Banking when Senator Shelby was Chairman. So I know 
they know both ends of the game.
    Senator Chambliss. Mr. Chairman?
    Chairman Schumer. Senator Chambliss.
    Senator Chambliss. Can I get some more office space?
    [Laughter.]
    Senator Blunt. Mr. Chairman, can I get any office space?
    [Laughter.]
    Chairman Schumer. I think we are about finished.
    By the way, one of the things we did is we sped up the 
procedure, and--are we finished yet. Are we finished picking 
offices?
    Ms. Bordewich. No.
    Chairman Schumer. Who are we up to?
    Ms. Bordewich. We do not say who or what number.
    Chairman Schumer. What number?
    Ms. Bordewich. We are over half done. We are in the 60s.
    Chairman Schumer. We are in the 60s. We are much more than 
half done, so we should finish in about a month. It used to 
take until August. For you young members, you may not remember 
that. One day you guys will get a hideaway.
    Senator Nelson. Well, are hideaways next? Are we going to 
start bumping in hideaways next?
    Chairman Schumer. Hideaways and extra space come next.
    Senator Leahy. Mr. Chairman? Mr. Chairman, it is a lot 
better than it used to be. When I first came here 37 years ago, 
I was the junior-most member of the Senate. I was number 99. 
There had been a tied race in New Hampshire, and they finally 
did the race over again, literally.
    Chairman Schumer. That is right.
    Senator Leahy. And myself and the next most junior person 
had rooms in the basement of the Russell Building. Mine had 
been a recording studio, so I had that kind of fiberboard with 
the holes all through it. After about 15 minutes, you were 
going like this. So I spent a lot of time walking outdoors.
    Chairman Schumer. Well, you are in a little better shape 
now than you were then, Mr. Chairman.
    Senator Leahy. I am.
    Chairman Schumer. Senator Shelby?
    Senator Shelby. Mr. Chairman, the hideaways, when do we go 
through those?
    Chairman Schumer. As soon as we finish the offices. So I 
would say in about a month.
    Senator Shelby. Thank you.
    Chairman Schumer. And there are lots of--what number in 
seniority are you, Dick?
    Senator Shelby. In the whole Senate?
    Chairman Schumer. Yes. That is how hideaways work.
    Senator Shelby. Maybe 15.
    Chairman Schumer. No, you are higher than that.
    Senator Shelby. Well, I do not know. I might be lower.
    Chairman Schumer. Oh, Senator Blunt, you will get a 
hideaway as well because everyone gets one now with the Visitor 
Center.
    Okay. Why don't we get started?
    Senator Blunt. Mr. Chairman, I am guessing that my 
hideaway, like my current office, will not have a window.
    Chairman Schumer. Even my hideaway does not have a window 
yet. It is all done by strict seniority. Being Chairman of 
Rules entitles you to not much, but glad to be here.
    [Here Committee Members resumed Organizational Meeting 
business.]
    Why don't we begin our agenda? It is adoption of the 
Committee Rules of Procedure and then the approval of an 
original resolution which will fund the Rules Committee during 
the 112th Congress. The Rules of Procedure are the same as the 
last Congress.
    The second item on the agenda is the approval of the 
budget. As many members are aware, the Rules Committee sent a 
letter to Committee Chairmen and Ranking Members regarding 
their budgets for the 112th Congress. The letter included 
guidance from the leadership on the amount of funds that would 
be available for each committee, and I am pleased to report 
that our resolution, the Rules Committee resolution, is within 
these guidelines. I am also pleased to inform the Committee 
that all other committees will be reporting resolutions that 
are within the leadership guidelines, so we have had great 
cooperation among both the Chairs and the Ranking Members of 
all the committees.
    So according to the Committee's Rules of Procedure, we need 
ten members to report legislation. We have them. So we can have 
a voice vote on the motions unless there is a request for a 
roll call. So at this time, a quorum is present. Is there any 
further debate on the two agenda items--the proposed Rules of 
Procedure or the Rules Committee budget for the next 2 years?
    Senator Inouye. Move to adopt.
    Senator Alexander. Second.
    Chairman Schumer. We have a motion and a second to adopt. 
Without objection, the Rules of Procedure are adopted.
    The second question is on the adoption of the original 
resolution authorizing expenditures for the Rules Committee for 
the 112th. All in favor say aye?
    [A chorus of ayes.]
    Chairman Schumer. All opposed, nay?
    [No response.]
    Chairman Schumer. The ayes have it. Without objection, the 
original resolution is reported.
    So, with that, I thank you for your attendance.
    [Whereupon, at 3:45 p.m., the Committee was adjourned.]0



       EXECUTIVE SESSION ON OMNIBUS BUDGET FOR SENATE COMMITTEES

                              ----------                              


                         TUESDAY, MARCH 1, 2011

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the committee, presiding.
    Present: Senators Schumer, Feinstein, Durbin, Nelson, 
Udall, Warner, Leahy, Alexander, Cochran, and Blunt.
    Staff Present: Jean Bordewich, Staff Director; Jennifer 
Griffith, Deputy Chief of Staff; Jason Abel, Chief Counsel; 
Sonia Gill, Counsel; Julia Richardson, Counsel; Lauryn Bruck, 
Professional Staff; Lynden Armstrong, Chief Clerk; Matthew 
McGowan, Professional Staff; Jeff Johnson, Staff Assistant; 
Mary Suit Jones, Republican Staff Director; Shaun Parkin, 
Republican Deputy Staff Director; Paul Vinovich, Republican 
Chief Counsel; Michael Merrell, Republican Counsel; and Rachel 
Creviston, Republican Professional Staff.
    Chairman Schumer. The Rules Committee will come to order. 
The Committee is meeting today to consider an original 
resolution, the Omnibus Committee Funding Resolution, which 
will authorize expenditures by Senate Committees for 112th 
Congress.
    I am pleased to report all the Committees reported funding 
for resolutions within the guidelines. The total authorization 
for individual Committees is $242,710,872, down from 
$256,702,618. So it has dropped over $10 million.
    Under the joint leadership letter of February 3 which 
restored special reserves to their historic purpose, Committees 
are no longer guaranteed access to special reserves on request.
    Since we have a quorum, is there any further debate on the 
original resolution authorizing expenditures by the Committee 
of the Senate for the 112th Congress?
    Senator Alexander. Mr. Chairman, I move its adoption.
    Chairman Schumer. Any objection?
    [No response.]
    Chairman Schumer. All those in favor say aye.
    [A chorus of ayes.]
    Chairman Schumer. Opposed nay.
    [No response.]
    Chairman Schumer. The ayes have it. Without objection, the 
original resolution is ordered reported. Since there is no 
further business, first let me thank all the members for their 
very, very conscientious service and on-time arrival, and the 
hearing is now adjourned.
    [Whereupon, at 10:12 a.m., the Executive Session 
adjourned.]0



                       EXECUTIVE BUSINESS MEETING

                              ----------                              


                        WEDNESDAY, MAY 11, 2011

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:16 p.m., in 
Room 301, Russell Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the committee, presiding.
    Present: Senators Schumer, Inouye, Feinstein, Durbin, 
Pryor, Udall, Warner, Leahy, Alexander, and Blunt.
    Staff Present: Jean Bordewich, Staff Director; Jennifer 
Griffith, Deputy Staff Director; Jason Abel, Chief Counsel; 
Carole Blessington, Assistant to the Staff Director; Josh 
Brekenfeld, Professional Staff; Sonia Gill, Counsel; Julia 
Richardson, Counsel; Lauryn Bruck, Professional Staff; Lynden 
Armstrong, Chief Clerk; Jeff Johnson, Staff Assistant; Mary 
Suit Jones, Republican Staff Director; Shaun Parkin, Republican 
Deputy Staff Director; Paul Vinovich, Republican Chief Counsel; 
Michael Merrell, Republican Counsel; Lindsey Ward, Republican 
Professional Staff; and Trish Kent, Republican Professional 
Staff.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. We expect two members on their way and 
Senator Shelby is across the hall and is ready to come in, so I 
thought we would just do the business and then we could just 
vote as soon as they come, if that is okay with everybody. 
Okay. Then thank you all for coming. Everyone rearranged their 
schedules, so we very much appreciate--Senator Alexander and I 
appreciate people coming.
    We are going to be very quick. I am going to now submit all 
my statements in the record and ask anyone else to submit their 
statements in the record.
    [Submitted for the Record]
    We are going to try to get three things done today quickly. 
The first is the nomination of William Boarman to be Public 
Printer. The second is S. Res. 116, to expedite the 
confirmation process. This is the bill that Senator Alexander 
has championed and shepherded through to remove some 400 people 
from the confirmation rolls. And the third is a bill by Senator 
Levin to direct the Architect of the Capitol to create and 
install battery recharging stations for electric cars that 
Senator Alexander and I have both co-sponsered. So we are going 
to have three separate votes, voice votes, hopefully, on those, 
and as soon as ten people are here, we will do that.
    Senator Leahy. Mr. Chairman?
    Chairman Schumer. The Senator from Vermont.
    Senator Leahy. Mr. Chairman, I have had the opportunity to 
chair two authorizing committees, Agriculture and Judiciary, 
and I think what Senator Alexander and you and others have done 
in wanting to cut down the number of people who should not even 
be in the confirmation process--they are not lifetime, they 
really serve at the pleasure of the President--I strongly 
endorse what you have done. I think it is a great move forward.
    Chairman Schumer. Thank you, Senator Leahy.
    Senator Warner?
    Senator Warner. And I actually just wanted to raise the 
same point. As someone who does not have the experience of 
Senator Leahy but sometimes kind of question all of the time 
and effort spent on what seem to be relatively minor 
nominations, the fact that Senator Alexander has taken the lead 
and worked with you to cut down that process, I think, makes 
more effective government and I commend you both.
    Chairman Schumer. Thank you, Senator.
    We have ten, so without further ado, maybe we can vote. Do 
you want to say something more?
    Senator Alexander. No. Why don't we vote.
    Chairman Schumer. Statements will be in the record. He 
shows his wisdom as a legislator.
    Is there any further debate on the nomination of William J. 
Boarman, of Maryland, to be Public Printer?
    [No response.]
    Chairman Schumer. Seeing none, the question is on reporting 
the nomination favorably to the Senate. Unless there is a 
request for a roll call, this will be a voice vote. All those 
in favor, say aye.
    [Chorus of ayes.]
    Chairman Schumer. Opposed, nay.
    [No response.]
    Chairman Schumer. The ayes have it. The nomination is 
ordered reported to the Senate with the recommendation the 
nominee be confirmed.
    Second is S. Res. 116, nominations. Unless there is a 
request for a roll call vote, this will be a voice vote. Is 
there any further debate on reporting S. Res. 116, to provide 
for expedited Senate consideration of certain nominations 
subject to advise and consent?
    [No response.]
    Chairman Schumer. Seeing none, the question is on reporting 
S. Res. 116 favorably to the Senate. All those in favor, say 
aye.
    [Chorus of ayes.]
    Chairman Schumer. Opposed, nay.
    [No response.]
    Chairman Schumer. The ayes have it. S. Res. 116 is ordered 
reported to the Senate.
    Finally, we have S. 739. Unless there is a request for a 
roll call vote, this will be a voice vote. Is there any further 
debate on S. 739, a bill to authorize the Architect of the 
Capitol to establish battery charging stations for privately 
owned vehicles in parking areas under the jurisdiction of the 
Senate at no net cost to the Federal Government?
    [No response.]
    Chairman Schumer. Seeing none, the question is on reporting 
S. 739 favorably to the Senate. All those in favor, say aye.
    [Chorus of ayes.]
    Chairman Schumer. Opposed, nay.
    [No response.]
    Chairman Schumer. The ayes have it. S. 739 is ordered 
reported to the Senate.
    The record will remain open for any statements that people 
may wish to make, and I want to thank everybody for coming. 
Before I adjourn the meeting, I am going to call on Senator 
Alexander.
    Senator Alexander. Mr. Chairman, I want to thank you and 
the members for rearranging schedules. The confirmation bill is 
a good bill for the Senate, and Senator Schumer and I are going 
to meet with the White House Director of Personnel and 
encourage them to clean up and make more orderly the executive 
branch nominations process so we have less of the ``innocent 
until nominated'' phenomenon.
    The electric vehicle bill is a good start as a pilot 
program to do our part to take what I think is the best step 
forward in reducing our use of oil. It's a small step, but also 
a big step, at no cost to the taxpayers.
    Thank you very much.
    Chairman Schumer. Any other comments?
    Senator Feinstein. Mr. Chairman?
    Chairman Schumer. The Senator from California.
    Senator Feinstein. If I might, it is my understanding that 
this is Josh Brekenfeld' s first bill that has come out of 
Committee. He has served me as staff. He has served this 
committee as staff. So I thought it might be nice just to say, 
well done, Josh. Much of the best.
    Chairman Schumer. Thank you, Senator Feinstein, and Josh 
has done an incredible job in every way in a professional 
sense. In the Rules Committee, we are staffed by career civil 
servants who just serve the body, and the body would not work 
without people like Josh, so I want to add my thanks to you, 
Josh. Thanks for your service.
    Any other comments? If not, then we are adjourned.
    [Whereupon, at 2:22 p.m., the committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

  Statement of Chairman Charles E. Schumer--Rules Committee Executive 
                     Business Meeting--May 11, 2011
                William J. Boarman to be Public Printer
    The Rules Committee shall come to order. Good morning.
    I would like to welcome everyone, including our Ranking Member, 
Senator Alexander, (and my fellow Rules Committee colleagues present 
here today).
    The agenda includes both executive and legislative business--
consideration of the nomination of William (Bill) Boarman for the 
position of Public Printer and consideration of S. 739 and S. Res. 116.
    Our first order of business is the Public Printer nomination.
    The Government Printing Office was created by ``The Printing Act'' 
in 1860 for the production and distribution of information products and 
services for all three branches of the federal government.
    GPO publishes the Nation's most important government information 
products, including the Congressional Record and Federal Register, in 
electronic format for widespread digital access by the public, and in 
printed form. It also produces and maintains FdSys (``FED-SIS''), an 
enormous website and database that is the sole source of official 
government documents.
    Nearly 60 percent of the printing the GPO manages for the Federal 
Government is procured through private sector vendors across the 
country. On a daily basis, the agency manages between 600 and 1,000 
print-related projects a day through a long-standing partnership with 
America's printing industry.
    Mr. Boarman has a distinguished career in management and has 
mastery of the field of publishing, including employment at GPO in the 
1970's. He already is working hard to modernize the process of making 
information available to the general public in digital as well as 
printed form.
    Last Congress, the Rules Committee held a hearing on Mr. Boarman's 
nomination on May 25, 2010, and a markup on July 20, 2010, where he was 
reported out of Committee by voice vote. The nomination was placed on 
the Executive Calendar.
    Mr. Boarman currently serves as Public Printer, following his 
appointment on December 29, 2010, by President Obama. On January 26, 
2011, the President nominated him for Senate confirmation to a full 
term.
    When we have ten Members present, we can have a voice vote to 
report this nominee out of committee, unless there is a request for a 
roll call vote.
                               __________
            Opening Statement of Senator Charles E. Schumer
                         Markup of S. Res. 116
                              May 11, 2011
    We will now move to S. Res. 116, a bipartisan resolution which will 
create a standing order that will expedite the Senate confirmation 
process for over 250 nominations. I'd like to thank my friend, Ranking 
Member Alexander, for his work on this bipartisan effort.
    This resolution is one result of the six filibuster hearings that 
this committee held last year, and a byproduct of the reform deal that 
was struck at the beginning of this Congress. These hearings were 
suggested by Senator Udall, who has been a true leader on this subject, 
and I look forward to working with him on these issues in the future.
    In January, Majority Leader Reid and Republican Leader McConnell 
announced a bipartisan working group to streamline the confirmation 
process as part of our overall effort to reform Senate rules and 
procedures related to the filibuster.
    Since that time, in conjunction with the Leaders, Senators 
Alexander, Lieberman, Collins and I have been working closely in a true 
bipartisan effort to improve how the Senate deals with executive 
nominations. Our mandate was limited in scope, but the effect will be 
felt throughout our government.
    S. Res. 116 as it currently stands will establish by standing order 
a new Senate procedure to streamline the confirmation process for part-
time positions on certain boards and commissions. A majority of these 
boards require political balance. We are doing this--rather than 
eliminating Senate consideration in its entirety--in order to ensure 
that these politically-balanced boards remain bipartisan.
    The expedited process for this class of ``privileged nominations'' 
will allow uncontested nominations to avoid the full committee process. 
Each step of the process will be recorded on new sections of the 
Executive Calendar. Upon request by any Senator, such a nomination may 
go through the regular committee confirmation process.
    However, the presumption is that these non-controversial part-time 
positions usually will be approved by unanimous consent, and not be 
held up as part of other battles.
    S. Res. 116 works in tandem with S. 679, which was reported out by 
the Homeland Security and Governmental Affairs Committee last month. 
That bill eliminates Senate confirmation altogether for 204 
Presidential appointments.
    After their markup, we received a letter from Senators Lieberman 
and Collins asking us to consider ``whether it would be appropriate'' 
to consider chief financial officer positions in our resolution, not 
wishing to speak for Senator Alexander and myself during their markup. 
Their opinion was that they were ``not yet persuaded'' that these 
positions need to remain Senate confirmable.
    We think that consideration of this issue is best left for the 
entire Senate, and in a way that does not weaken our efforts.
    I'd now like to ask Ranking Member Alexander if he has any opening 
statement he'd like to give.
                               __________
            Opening Statement of Senator Charles E. Schumer
                            Markup of S. 739
                              May 11, 2011
    We will now move to S. 739, a bill which authorizes the Architect 
of the Capitol (AOC), at no cost to the Federal government, to create 
and install electric vehicle recharging stations in Senate parking 
facilities.
    This bill was drafted with bipartisan support. Senator Alexander 
and I join Senators Kerry, Murkowski, Bingaman, Merkley and Stabenow in 
supporting this bill sponsored by Senator Levin.
    It bears repeating: This bill creates a program that will not cost 
the Federal government one dime. S. 739 funds the installation and 
maintenance of the charging stations by billing the individuals who use 
the plug-in stations.
    S. 739 works on a simple premise: the more people who drive 
electric cars on campus, the more plug-in stations the AOC will 
install. S-739 insures that the demand for plug-in stations will match 
the number of dues paying participants who fund the program.
    This bill is needed as more and more people decide to buy electric 
cars. Currently, the Architect does not have the authority to install 
plug-in stations on the Capitol campus. This bill fixes that problem in 
a smart, cost effective manner.
                               __________
                         Senate Rules Committee
                           Opening Statement
                           Senator Tom Udall
                              May 11, 2011
    Mr. Chairman,
    I began calling for reform of the Senate rules in January 2010. 
Since then, many things have happened that have advanced that goal, but 
we are still a long way from real, substantive reform.
    I appreciate the chairman's willingness to work on this issue and 
devote a substantial amount of the committee's time to the hearings we 
held last year. We discussed many ideas on how to make the Senate a 
more functional and deliberative body--including those proposed by 
Senators Wyden, Bennet, and Harkin.
    What became clear in those hearings, and from the dysfunction that 
we witnessed on the Senate floor, is that the Senate is a broken 
institution.
    In the last Congress, because of rampant and growing obstruction, 
not a single appropriations bill was passed. There wasn't a budget 
bill. Only one authorization bill was approved--and that was only at 
the very last minute. More than 400 bills on a variety of important 
issues were sent over from the House. Not a single one was acted upon. 
Key judicial nominations and executive appointments continue to 
languish.
    These issues cannot be fixed with minor reforms--they require us to 
make real changes in how the Senate conducts its business. We attempted 
to make these changes in January, but were unable to pass the most 
substantive reforms. However, as part of that process we did get an 
agreement to continue working on the problem. Part of that agreement 
included removing about one-third of Executive nominees from needing 
Senate confirmation. What came out of that effort was two pieces of 
legislation--S. 679, the statutory piece of nomination reform that 
removes about two hundred nominees from confirmation, and S. Res. 116, 
which is the subject of today's meeting.
    While I appreciate the effort to draft these pieces of legislation, 
I do not believe they go far enough to reform the Senate and ultimately 
do not address the real problems in this body. S. 679 removes many 
nominees from needing Senate confirmation, but those exempted are 
primarily congressional affairs and public information officer 
positions in Executive branch agencies. Senate Resolution 116 provides 
an expedited confirmation procedure for many part-time board positions. 
While I believe this was a sincere attempt to help address Senate 
gridlock, these nominations are rarely the reason for obstruction in 
the Senate. Instead of trying to fix a problem that doesn't exist, we 
should focus on the real issues that prevent this body from doing the 
work that is expected of us.
    I had hoped that last year's Rules Committee hearings were the 
first step in making some real reforms to the Senate as an institution. 
Those hearings were not about what nominees should require Senate 
confirmation, but the more fundamental issue of how the Senate confirms 
nominees and passes legislation. We took a good look at our rules--how 
they incentivize obstructionism . . . how they inhibit, rather than 
promote debate . . . and how they prevent bipartisan cooperation.
    But the next step should have been to implement common sense 
reforms to meet these challenges--reforms that will restore the 
uniquely deliberative nature of this body, while also allowing it to 
function more efficiently. I don't think S. 679 and S. Res. 116 are the 
answer to the problems we identified in last year's hearings.
    Senate Resolution 10, the reform package that I introduced in 
January, along with Senators Harkin, Merkley, and twenty-three other 
cosponsors, was our attempt at addressing the institutional dysfunction 
that has infested the Senate over the past few decades. It contained 
five reforms that should have garnered broad, bipartisan support. 
Unfortunately, enough Senators were not willing to give up a little of 
their own individual power in order to make this a better institution 
for the country.
    The first two provisions in our resolution addressed the debate on 
motions to proceed and secret holds. These are not new issues. Making 
the motion to proceed non-debatable, or limiting debate on such a 
motion, has had bipartisan support for decades and is often mentioned 
as a way to end the abuse of holds.
    I was privileged to be here for Senator Byrd's final Rules 
Committee hearing, where he stated:
    ``I have proposed a variety of improvements to Senate Rules to 
achieve a more sensible balance allowing the majority to function while 
still protecting minority rights. For example, I have supported 
eliminating debate on the motion to proceed to a matter . . . or 
limiting debate to a reasonable time on such motions.''
    In January 1979, Senator Byrd--then Majority Leader--took to the 
Senate Floor and said that unlimited debate on a motion to proceed, 
``makes the majority leader and the majority party the subject of the 
minority, subject to the control and the will of the minority.''
    Despite the moderate change that Senator Byrd proposed--limiting 
debate on a motion to proceed to thirty minutes--it did not have the 
necessary votes to overcome a filibuster.
    Efforts to reform the motion to proceed have continued since. In 
1984, a bi-partisan ``Study Group on Senate Practices and Procedures'' 
recommended placing a two-hour limit on debate of a motion to proceed. 
That recommendation was ignored.
    In 1993, Congress convened the Joint Committee on the Organization 
of Congress. The Committee was a bipartisan, bicameral attempt to look 
at Congress and determine how it can be a better institution.
    Senator Pete Domenici, my immediate predecessor, was the co-vice 
chairman of the committee. Senator Domenici stated at a hearing before 
the Joint Committee, ``If we abolish [the debatable motion to proceed], 
we have gone a long way to diffusing the validity of holds.''
    But here we are again today--more than thirty years after Senator 
Byrd tried to make a reform that members of both parties have agreed is 
necessary--and it still has not been implemented.
    The third provision in our resolution was included based on the 
comments of Republicans at last year's Rules Committee hearings. Each 
time Democrats complained about filibusters on motions to proceed, 
Republicans responded that it was their only recourse because the 
Majority Leader fills the amendment tree and prevents them from 
offering amendments. Our resolution provided a simple solution--it 
guarantees the minority the right to offer amendments.
    The fourth provision of our resolution addressed the abuse of the 
filibuster. Senator Merkley worked extensively with the Parliamentarian 
and CRS to devise a rule that would make the filibuster real again. The 
concept is simple--if a senator wants to prevent the rest of the Senate 
from ending debate on a bill or nominee, he or she must actually 
continue to debate.
    Finally, our resolution reduced the post-cloture time on 
nominations from thirty hours to two. Post cloture time is meant for 
debating and voting on amendments--something that is not possible on 
nominations. Instead, the minority now requires the Senate use this 
time simply to prevent it from moving on to other business.
    Our resolution was an attempt to make actual debate a more common 
occurrence. It would bring our legislative process into the light, and 
hopefully, it would help restore the Senate's role as the ``world's 
greatest deliberative body.''
    I planned to offer amendments to S. Res. 116 that would have 
included some of the provisions from our January resolution. I believe 
these amendments would have improved the resolution and made it a much 
stronger reform package. I have withdrawn these amendments in order to 
expedite the committee process, but have every intention of offering 
them when we consider the bill on the floor.
    I also wanted to offer an amendment to address a concern raised by 
Senator Portman in the Homeland Security markup for S. 679. That 
amendment would have preserved the Senate-confirmed status of the chief 
financial officers within our nation's major federal departments and 
agencies, including the major branches of the military. CFOs are 
responsible for some of the least glamorous but most important work 
necessary to ensure taxpayer dollars are well-spent. By law, these 
departmental CFOs oversee all financial management activities relating 
to all programs and operations of their agency.
    At the Homeland Security & Government Affairs Committee mark-up 
last month, Senator Portman offered an amendment to S. 679 that would 
have retained the requirement of Senate confirmation for these 
positions. That amendment led to an offer of a simple compromise: these 
top financial management executives would remain Senate-confirmed 
positions, but would be moved to the streamlined confirmation process 
that the Rules Committee is now considering.
    Chairman Lieberman and Ranking Member Collins expressed tentative 
support for this approach, but asked that Senator Portman withdraw his 
amendment until the Rules Committee acted on this compromise proposal. 
On April 14, Senators Lieberman and Collins wrote Chairman Schumer and 
Ranking Member Alexander to ask that the Rules Committee consider 
placing chief financial officers on the expedited confirmation track. I 
had hoped we would consider this amendment today, but it will also have 
to wait until the bill is on the floor.
    I believe holding markups for important legislation is an important 
part of the legislative process in the Senate and it is the 
responsibility of each committee to carefully look at the legislation 
within its jurisdiction. Unfortunately, most committees no longer 
fulfill that responsibility, which is just one more indication that the 
Senate no longer functions as our founders intended.
    I have withdrawn my amendments, but I do plan to offer them, and 
probably several others, when the resolution goes to the floor. I hope 
at that time we can have an open and honest debate on this legislation 
and consider amendments to improve the resolution.
    I ask that the April 14 letter from Senators Lieberman and Collins 
to Senators Schumer and Alexander be included with my statement in the 
hearing record.
    Thank you again, Mr. Chairman.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 HEARING ON NOMINATION OF GINEEN BRESSO, THOMAS HICKS, AND MYRNA PEREZ 
          TO BE MEMBERS OF THE ELECTION ASSISTANCE COMMISSION

                              ----------                              


                        WEDNESDAY, JUNE 29, 2011

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the committee, presiding.
    Present: Senators Schumer, Alexander, Cochran, and Blunt.
    Staff Present: Jean Bordewich, Staff Director; Jennifer 
Griffith, Deputy Staff Director; Jason Abel, Chief Counsel; 
Veronica Gillespie, Elections Counsel; Adam Ambrogi, 
Administrative and Legislative Counsel; Carole Blessington, 
Assistant to the Staff Director; Josh Brekenfeld, Professional 
Staff; Sonia Gill, Counsel; Lauryn Bruck, Professional Staff; 
Lynden Armstrong, Chief Clerk; Jeff Johnson, Staff Assistant; 
Mary Suit Jones, Republican Staff Director; Shaun Parkin, 
Republican Deputy Staff Director; Paul Vinovich, Republican 
Chief Counsel; Michael Merrell, Republican Elections Counsel; 
and Trish Kent, Republican Professional Staff

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. The Committee on Rules and Administration 
will come to order. We are going to try to finish this in 
record time. So, we are going to ask everybody to be very 
brief. In fact, I am going to start with myself.
    I have an opening statement. I am going to put it in the 
record. The hearing, as you know, is a confirmation hearing of 
the nomination of three nominees to the Election Assistance 
Commission. We know how important the EAC is.
    And so, I am going to put my entire statement in the 
record. I know that Senator Alexander very much wants to make 
an opening statement, and so, I am going to defer to him.
    With unanimous consent, my entire statement is entered into 
the record.
    [The prepared statement of Chairman Schumer included in the 
record:]

             OPENING STATEMENT OF SENATOR ALEXANDER

    Senator Alexander. Thanks, Mr. Chairman. I am going to be 
reasonably succinct----
    Chairman Schumer. You do not have to be succinct.
    Senator Alexander. I need to make my statement.
    Chairman Schumer. I understand. Please.
    Senator Alexander. It is good to see you and good to see 
Senator Cochran.
    Mr. Chairman, with all due respect to the nominees before 
us, I think this hearing is premature. Instead of considering 
new nominees, we ought to be abolishing this commission.
    The Election Assistance Commission was constituted in 2003. 
Since then, our Committee has not had one single oversight 
hearing on it. My predecessor at this Committee, Senator 
Bennett, wrote in 2009 to ask for an oversight hearing. We did 
not have one. I wrote in March to suggest one. We did not have 
one.
    Our government is borrowing 40 cents out of every dollar we 
spend. We have a terrific finance problem with the Federal 
Government. Yet today, we are considering new appointments to a 
commission that should cease to exist.
    Now, here is why I say that. This commission was created by 
the Help America Vote Act in 2002. The Election Assistance 
Commission was authorized for three years and given certain 
tasks. The primary task of the commission was to distribute 
federal payments to the states to help them upgrade their 
voting systems. $3.2 billion was appropriated for these 
statements, and it has been distributed.
    Given our current fiscal situation, it is very unlikely any 
more federal money is forthcoming. The current Administration 
seems to agree with that. They have asked for no funds for this 
purpose in either of their last two budgets.
    The commission was also directed to develop voluntarily 
voting system guidelines and a testing and certification 
program for voting machines. The actual work involved in this 
is performed by the National Institute of Standards and 
Technology.
    Finally, the commission was to act as a clearinghouse to 
collect and distribute information on best practices. Yet the 
intended beneficiaries of this service do not seem to have much 
use for it.
    The National Association of Secretaries of State, a 
bipartisan organization, has twice voted in favor of a 
resolution calling for abolition of the commission.
    So, we have a situation where we are saying we are the 
government, we are here to give you help that you do not want. 
The tasks of the commission have now either been completed or 
can be performed by more appropriate entities.
    The commission did its job. We should thank the commission 
and the staff for their service. But if the completion of their 
appointed task is not enough of a reason to close it down, the 
commission also appears to have serious management problems.
    Though its mission has dwindled, its staff has grown. The 
commission had 20 staff in 2004. Last year it had 64 staff. The 
average salary of the staff, according to Congressman Greg 
Harper, is over $100,000. Why is more staff needed, Mr. 
Chairman, for less work?
    This year's budget submission for the commission proposes 
spending $5.4 million to manage $3.4 million worth of programs. 
Now, does this make any sense? When the cost of the overhead 
and staff salaries exceeds the amount of a program, clearly 
something is wrong.
    Finally, the commission has an unfortunate history of 
hiring discrimination. The office of special counsel found that 
they engaged in illegal discrimination when, during a search 
for a general counsel, an employment offer was made and then 
withdrawn when the Democratic commissioners discovered the 
applicant was a Republican.
    The result was a substantial settlement being awarded to 
the applicant, forcing taxpayers to bear the cost. It has been 
reported that in subsequent interviews a similar thing has 
happened within appropriate questions about military service.
    Mr. Chairman, I recognize the nominees before us are not to 
blame for this incident but that is beside the point. Even if 
we were to assume that the nominees could right the ship and 
correct the problems, the question would remain where would the 
ships sail and why make the trip?
    Do we even need the commission? With its main job completed 
and with a big budget problem in Washington, why could not its 
remaining duties be better performed somewhere else?
    Can a government program once created ever be terminated? 
Mr. Chairman, Ronald Reagan once said, ``A government bureau is 
the nearest thing to eternal life we will ever see on this 
earth.''
    Should we not try, using this opportunity, to prove 
President Reagan wrong?
    Thank you, Mr. Chairman.
    Chairman Schumer. Thank you, Mr. Ranking Member. That is 
sort of a different issue than moving nominees, whether the 
commission should continue.
    I appreciate your views, and we will continue the 
discussion on that. I have heard carefully what you said. We 
should not gainsay that the commission has done some good 
things - testing voting equipment, dealing with butterfly 
ballots which created all the kinds of problems, and 
establishing the military heroes grants which help injured 
combat veterans vote.
    But it is an issue that we will discuss. I understand your 
strong feelings and I understand the need to cut back and I 
understand the need for having the kinds of functions the 
commission does be done somewhere. The commission has done a 
good job.
    But with that, we both believe, even though we may not 
agree on the commission, we both believe that nominees should 
move quickly. And so we will move forward with our nominees if 
that is okay with the other members here.
    Senator Cochran. Mr. Chairman.

              OPENING STATEMENT OF SENATOR COCHRAN

    Chairman Schumer. Senator Cochran.
    Senator Cochran. I would like to join my colleague from 
Tennessee and express my concerns that we are walking into an 
area where there is some uncertainty. And in fairness to the 
nominees who are before the Committee for confirmation, I hope 
we can resolve this issue.
    I notice one of the Congressional members from my State has 
joined in introducing legislation in the other body that would 
eliminate the commission, and I noticed that it is expected 
that if we did, we would save about $33 million in taxpayer 
funds.
    And the question is a legitimate question that I think the 
distinguished Senator from Tennessee has raised.
    Chairman Schumer. It is a legitimate question and we will 
figure out a forum to deal with that question.
    Senator Cochran. With that assurance, I will shut up and 
let you do what you want to do.
    Chairman Schumer. Senator Blunt.

               OPENING STATEMENT OF SENATOR BLUNT

    Senator Blunt. Mr. Chairman, I heard your last statement 
and I was just going to ask if that was our intention, but I 
would like to look at this as well.
    When I was the Secretary of State of Missouri, I was the 
chief election official of the state for eight years. In 2010, 
I know many of the Secretaries of State called for the 
elimination of the Election Assistance Commission agency and 
the President has not requested any grant funds to be 
distributed which was one of the early and maybe most 
successful purposes of the agency.
    I join my colleagues in looking forward to your decision to 
call a hearing to talk about the future of this agency. This 
request implies nothing about the quality of the nominees, but 
just the purpose of the agency.
    Chairman Schumer. I did not agree to have a hearing. I just 
said we would continue our discussions. We will.
    Senator Blunt. Well, I was optimistic in the way I heard 
you say that.
    Chairman Schumer. I did not say we would not. I did not say 
we would.
    Senator Blunt. I tend to be optimistic anyway, Mr. 
Chairman. That is why I think we are going to get things done.
    Chairman Schumer. Okay. Thank you. And you are a fine 
member of this Committee and I appreciate your optimism. Okay.
    Let me introduce the three witnesses here. We have three 
nominees. Our current commissioner, Gineen Bresso, was 
recommended by Speaker Boehner and has been an EAC commissioner 
since 2008. Thank you for your service, and I am sure my 
colleagues join me in that. The comments about the need for the 
commission is no reflection on the job that you have done.
    Tom Hicks is recommended by Leader Pelosi, and he has 
served as Senior Elections Counsel for the House Administration 
Committee. Myrna Perez, recommended by Majority Leader Reid, 
has an impressive legal career with degrees from Yale, Harvard, 
and Columbia. In her current job she is a counsel at the 
Brennan Center for Justice.
    So, we are going to swear the nominees in. Please stand. I 
ask the nominees to raise their right hand. Do you swear that 
the testimony you are about to provide is the truth, the whole 
truth, and nothing but the truth, so help you God?
    Ms. Bresso. I do.
    Mr. Hicks. I do.
    Ms. Perez. I do.
    Chairman Schumer. Thank you. Please be seated.
    Now, your statements are going to be put in the record. 
They are available to members.
    Because we want to expedite these hearings, I am going to 
take the liberty, with the permission of my colleagues here, to 
go right ahead to questions, if that is okay with you, Mr. 
Chairman, Mr. Ranking Member. He is almost the chair. We work 
in such a bipartisan way that I did not want to call him the 
chairman----
    Senator Alexander. I just hope to be the Chairman.
    Chairman Schumer. So, with that, let me ask two questions 
to each of you and then we will go to my colleagues.
    I am interested in learning what you each want to focus on 
as commissioner of the Election Assistance Commission, number 
one.
    And second, there has been some criticism of the EAC in 
recent years regarding management and personnel issues. What 
measures would you take to improve the administration of the 
agency?
    First, Ms. Bresso, then Mr. Hicks, and then Ms. Perez. Then 
we will call on my colleagues.

  TESTIMONY OF GINEEN BRESSO, NOMINATED TO BE A MEMBER OF THE 
                 ELECTION ASSISTANCE COMMISSION

    Ms. Bresso. Thank you, Chairman Schumer.
    Certainly all of the HAVA mandates that the commission has 
to fulfill are important, but I believe what I would like to 
focus on certainly is the testing and certification of our 
voting systems.
    We do have systems that are in the field; and through our 
quality monitoring program, we are going to have to observe and 
see how they do perform.
    When I was chair, during my tenure, we did not have any 
systems that were certified prior to my coming to the EAC. But 
during that time, I worked with my colleagues and we had 
certified four systems; and since then, we have certified an 
additional two systems and also two modifications.
    So, I believe that is very important for the upcoming 
election cycle.
    [The prepared statement of Ms. Bresso is included in the 
record:]
    Chairman Schumer. Mr. Hicks.

  TESTIMONY OF THOMAS HICKS, NOMINATED TO BE A MEMBER OF THE 
                 ELECTION ASSISTANCE COMMISSION

    Mr. Hicks. Thank you, Chairman Schumer.
    I think that there are a couple of things that the 
commission can still focus on. One being its clearing house 
function. Elections, as you know, happen every two years, and 
those elections might have problems in them. That is not to say 
that the commission should be abolished.
    I believe that the commission can still function very well 
in terms of getting information out to the state and local 
officials who are very adamant in their decision to keep the 
agency alive.
    The NASS decision was not necessarily unanimous. There were 
secretaries of states, particularly Mark Ritchie from 
Minnesota, who voiced his opinion of the commission being still 
available.
    The testing labs, I believe, function very well and I 
believe that the functions of that program should remain with 
the EAC.
    Mr. Harper's bill would transfer most of these functions 
over to the FEC, I think, should not be passed. I should also 
express that these are my opinions and not of my bosses who 
currently employ me.
    The bill itself would move particular items over to the 
FEC. The FEC has been viewed by many as an agency that is 
deadlocked on the simplest of things. Some say that sometimes 
they cannot even agree on what day of the week it is.
    So, I do not believe that the EAC should be abolished. I 
think that it can still function really well. I think that the 
state and locals have voiced their opinion. I think that the 
civil rights groups have voiced their opinion, and I believe 
that the administration of elections which is different than 
the financing of elections which the FEC holds, makes these two 
agencies completely different and, therefore, they should 
remain different.
    [The prepared statement of Mr. Hicks is included in the 
record:]
    Chairman Schumer. Thank you, Mr. Hicks.
    Finally, Ms. Perez.

   TESTIMONY OF MYRNA PEREZ, NOMINATED TO BE A MEMBER OF THE 
                 ELECTION ASSISTANCE COMMISSION

    Ms. Perez. Thank you, Senator.
    At this time, I would not feel comfortable committing to a 
firm list of priorities without talking to election 
administrators and seeing what it is that they need. But I 
think my focus would be on three things.
    One is growing confidence in the agency. It is very, very 
important that election administrators, Congress, and the 
public feel like they are getting expert service from the EAC, 
and that Congress and the public feel like taxpayers dollars 
are being well spent.
    I would also like to focus on making sure that the voting 
system standards were the gold standard for voting system 
certification, and I think this is one area where it is 
possible for there to be economies of scale.
    It should not be the case that every state has to expend 
what could be prohibitive resources just to make sure that our 
voting systems are safe and reliable; and by having one agency 
that can collect all of the information and be accessible to 
all of the vendors so they know what sort of benchmarks they 
have to hit, I think will produce efficiencies of scale and 
economies of scale.
    The last thing I think I would like to focus on is that of 
making sure that the Agency is ahead of the cutting edge 
technical and legal issues that are facing election 
administrators today.
    Election administration is dynamic. The technology is 
changing at a rapid pace and the laws are changing at a rapid 
pace. And election administrators have to do a great deal of 
work under very challenging situations including resource 
challenges.
    And if the agency is operating well and can predict what 
those issues are and figure out an effective way to disseminate 
and collect that information, I think that the 
comprehensiveness of its scope and the fact that it has a 
nationwide mission will allow it to be beneficial to the 
election administrators.
    I would like to note in my final moments that I find it 
deeply disturbing that NASS has lost its confidence in the EAC, 
and if I am confirmed, I will talk to them. I will try to 
figure out where the disconnect is and try to make sure that 
the EAC provides them the best customer service available.
    [The prepared statement of Ms. Perez is included in the 
record:]
    Chairman Schumer. I thank all three of you for your good 
and succinct answers. We are going to try to finish by 10:30. 
So, I would ask my colleagues for brevity. We can have 
statements submitted into the record, of course, and other 
questions for the nominees. We will have ample questions.
    But I want to call on my friend and colleague, Senator 
Alexander.
    Senator Alexander. Thanks, Mr. Chairman. I would just ask 
one question. I would observe, I think these nominees are very 
well qualified, and you and I have just completed an extensive 
review of all the positions that the Senate advises and 
confirms and I think we ought to find a commission upon which 
they could serve where they have something to do.
    So, none of what I am saying has any reflection upon the 
three of them. I think they are exceptionally talented people.
    My question is for each of you. Our election system leaves 
responsibility for running elections in the hands of state and 
local officials. The Help America Vote Act provided some 
federal assistance, some minimal federal requirements; but it 
basically left the system of elections in state and local 
hands.
    Do you see that as a good or bad thing? Do you think the 
elections would benefit from more federal control? Do you think 
the EAC would be more effective if it had more power?
    Chairman Schumer. Ms. Bresso.
    Ms. Bresso. Certainly. I agree that the elections should be 
administered on the state level as you had articulated; and 
certainly, you know, just traveling around and talking to 
election officials, each state is different, each locality is 
different. There is not a ``one size fits all'' approach. So to 
the extent that EAC can provide assistance to states and 
localities with the administration of elections, I believe that 
would be most beneficial.
    Chairman Schumer. Thank you for your good and succinct 
answer.
    Mr. Hicks
    Mr. Hicks. The Help America Vote Act was crafted in a 
bipartisan manner back in 2001 and 2002. There was a lot of 
blood, sweat, and tears that came up with that piece of 
legislation. If Congress should decide that it should be change 
is when I will change with it.
    Chairman Schumer. Thank you, Mr. Hicks.
    Ms. Perez.
    Ms. Perez. Our Constitution sets forth a very important and 
protected role for the states in the administration of 
elections, and I very much believe that states have a very 
important role to play. I think that state and local election 
administrators need resources, they need assistance, they need 
information being sent to them, and Congress made a 
determination that a federal agency could do that through a 
number of very delineated but very important statutory 
functions.
    I think that we as voters are best served if the Election 
Administration Commission focuses on the nuts and bolts of 
election administration and focuses on the core activities that 
Congress set forth for the Agency in the Help America Vote Act.
    Chairman Schumer. Thank you, Senator Alexander.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, let me ask Ms. Bresso.
    You have previously expressed some concerns about the 
budget submitted by the EAC. What role do you see the 
commissioners playing in the formation of a budget submission 
and what, if any, changes would you recommend be reviewed by 
the Committee during that process?
    Ms. Bresso. Currently, the commissioners play a role in the 
budgets but it is more at the last part of the budget process.
    Under our roles and responsibilities document that was 
adopted through a consensus vote prior to my tenure, the 
commission had delegated the authority to the executive 
director to develop the agency's financial plan.
    And certainly as commissioners, being appointed to the 
commission and having accountability to the taxpayers and 
Congress, we need to play a much more active role, and I want 
to work with my colleagues here to make sure that we do that 
moving forward.
    Senator Cochran. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Schumer. Thank you. Now, since we have a few extra 
minutes because of everyone's brevity, do any of the witnesses 
want to say anything else that you did not get a chance to add? 
Do not feel obligated but take the opportunity.
    Mr. Hicks. Thank you, Chairman Schumer.
    I would just like to acknowledge the presence of my 
mother----
    Chairman Schumer. Isn't that nice.
    Mr. Hicks. --who flew down from Boston to be here today.
    Chairman Schumer. Would she please stand so we can 
acknowledge her as well. Hi. I am sure you are proud of your 
son, Ms. Hicks.
    [Applause.]
    Mr. Hicks. The only other thing that I would like to add is 
that my children were not able to make it here today. They will 
be watching this via the webcast so I just wanted to 
acknowledge the three of them.
    Elizabeth, who is seven. Megan, who is four, and Edward, 
who is two. Thank you.
    Chairman Schumer. Well, God bless them, and I am sure they 
are proud of their dad as we all are.
    Ms. Perez.
    Ms. Perez. If I may do the same. My husband Mark Muntzel, 
members of my family, members of my church family, longtime 
friends, classmates, colleagues are here today to provide their 
love and support. I am truly blessed.
    Chairman Schumer. Great. Thank you. Would they like to, 
would at least your husband and immediate family like to stand 
so we can acknowledge them and thank them.
    Thank you both for being here.
    That was nice. Again I want to repeat what Lamar Alexander 
said. You are all three very well qualified. There is 
discussion as to whether the EAC should continue as you have 
heard, and that is a discussion we will continue. I promise 
that to Senator Alexander, but that issue is not a reflection 
on the quality of either your service, Ms. Bresso, or your 
nominations, Mr. Hicks and Ms. Perez. You are outstanding 
people and I am glad you are looking to work in our government.
    So, let me thank the nominees for testifying this morning.
    The record will remain open for five business days for 
additional questions and statements.
    The hearing is adjourned.
    [Whereupon, at 10:29 a.m., the Committee adjourned.]


                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

S. 2219, THE DEMOCRACY IS STRENGTHENED BY CASTING LIGHT ON SPENDING IN 
              ELECTIONS ACT OF 2012 (DISCLOSE ACT OF 2012)

                              ----------                              


                        THURSDAY, MARCH 29, 2012

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m., in 
Room 301, Russell Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the committee, presiding.
    Present: Senators Schumer, Feinstein, Durbin, Tom Udall, 
Leahy, Alexander, and Blunt.
    Staff Present: Jean Bordewich, Staff Director; Josh 
Brekenfeld, Deputy Staff Director; Adam Ambrogi, Chief Counsel; 
Veronica Gillespie, Elections Counsel; Julia Richardson, 
Counsel; Nicole Tatz, Professional Staff; Lynden Armstrong, 
Chief Clerk; Jeff Johnson, Staff Assistant; Mary Suit Jones, 
Republican Staff Director; Shaun Parkin, Republican Deputy 
Staff Director; Paul Vinovich, Republican Chief Counsel; 
Michael Merrell, Republican Counsel; Lindsey Ward, Republican 
Professional Staff; and Rachel Creviston, Republican 
Professional Staff.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. Good morning and the Rules Committee will 
come to order.
    I would like to thank my friend, Ranking Member Alexander 
for joining us at this hearing and all of my colleagues to 
discuss the DISCLOSE Act of 2012, which our colleague Sheldon 
Whitehouse introduced last week.
    The Supreme Court's Citizens United decision, in 
conjunction with other cases, has radically altered the 
election landscape by unleashing a flood of unlimited, often 
secret, money into our elections. In response to that 
disastrous decision, we introduced the DISCLOSE Act of 2010, 
which would have increased transparency by requiring full 
disclosure of the real sources of money behind political 
advertising. The House passed it. The President was ready to 
sign it. But in the Senate, it failed to get cloture by one 
vote.
    Now the problem is no longer hypothetical. The public is 
now living with the aftermath of the Citizens United decision 
every time they turn on their TV sets. An endless stream of 
negative ads is now drowning out all other voices, including 
the candidates themselves. The events of the 2010 election 
cycle and what we have seen so far in 2012 have confirmed our 
worst fears about the impact of Citizens United and subsequent 
court decisions.
    Two years ago, we were warned about these harmful effects, 
but the results are even worse than expected. Just this 
morning, we woke up to the breaking story reported by Bloomberg 
News that major corporations, including Chevron and Merck, gave 
millions to groups who ran attack ads in the 2010 elections and 
no one knew about it until now. That means voters two years ago 
were left totally in the dark about who paid for the attack ads 
hitting the airwaves.
    The trend is disturbing. According to the Center for 
Responsive Politics, a study they did showed that the 
percentage of campaign spending from groups that do not have to 
disclose their donors rose from a mere one percent in 2006 to 
47 percent in 2010. We can only imagine by what percentage it 
will grow by the end of 2012, almost certainly over 50. So more 
than half the ads now run in America have no disclosure. That 
is incredible and awful, in my opinion.
    And the money is coming overwhelmingly, of course, from the 
wealthiest Americans, as you would expect. A recent study in 
Politico found that 93 percent of the money that was 
contributed by individuals to super PACs in 2011 came in 
contributions of $10,000 or more. And here is the most 
astounding thing about Politico's study. Half of that money 
came from just 37 donors. Half of the money in the super PACs 
came from 37 donors. Is that democracy?
    Even more worrisome, we are increasingly seeing 
contributions to super PACs from nonprofit organizations, 
groups that can use the tax code to hide their sources of 
money, and from shadowy shell corporations. Some of these 
groups are nothing more than a post office box in the middle of 
an office park.
    By now, it should be clear to everyone that better 
disclosure is desperately needed. The 2012 DISCLOSE Act 
introduced by Sheldon Whitehouse, our Rules Committee colleague 
Senator Tom Udall, and myself, among others, is already 
supported by 40 Senators. It is a bill that should be 
acceptable to people of every stripe. That is how it was 
designed. That is how Senator Whitehouse and those of us 
working with him designed it.
    The previous bill imposed bans on government contractors 
and foreign-owned corporations, but those bans have been taken 
out, even though most of the sponsors thought it was the right 
thing to do. The 2010 legislation also required reporting 
donations of $600, but that threshold has been raised to 
$10,000 because, as we have seen, these huge donations dwarf 
that amount and make a donation of $100 seem irrelevant.
    The new bare bones DISCLOSE Act has two key components, 
disclosure and disclaimer, and it is very simple. Disclosure 
means outside groups who make independent expenditures in 
electioneering communications should disclose all their large 
donors in a timely manner--all their large donors. The bill 
includes a way to drill down to the original source of money in 
order to reveal those who are using intermediaries as a conduit 
to obscure the true funders. Through this covered transfer 
provision, even the most sophisticated billionaires will find 
it difficult to hide behind a 501(c) organization or shell 
corporation.
    Disclaimer means that voters who are watching the political 
ad will know who paid for it. Under current law, candidates are 
required to stand by their ads. Why should outside 
organizations engaging in this same kind of political activity 
be any different? The 2012 DISCLOSE Act would make super PACs, 
501(c)s, 527s, corporations, and labor unions identify their 
top five funders in their TV ads and top two funders in radio 
ads. The leader of the organization would have to stand by the 
ad, just like candidates must do.
    Transparency is not just a Democratic priority. My 
colleagues on both sides of the aisle have declared their 
support for greater disclosure as a way to prevent corruption. 
And eight of nine Supreme Court Justices in the Citizens United 
decision supported disclosure. The potential for corruption in 
the post-Citizens United era is all too clear. It is time to 
get serious about full transparency. This bill would do that.
    That is why we are holding this hearing: to examine the 
need for better disclosure and to discuss this particular 
legislation. And before we turn to our distinguished panel of 
experts, I want to ask my good friend Ranking Member Alexander 
and any other member who is here if they would like to make 
opening statements. As is the usual practice, I would ask that 
statements by members and witnesses are limited to five 
minutes. So without further ado, let me call on Senator 
Alexander.

             OPENING STATEMENT OF SENATOR ALEXANDER

    Senator Alexander. Thank you, Mr. Chairman. It is good to 
be with you on this beautiful spring day, and this hearing is 
as predictable as the spring flowers. In the middle of an 
election, my friends on the other side of the aisle are trying 
to change the campaign finance laws to discourage contributions 
from people with whom they disagree, all to take effect by July 
1, 2012. I deeply appreciate the sympathy that the Chairman is 
showing for the victimized Republican primary candidates 
Santorum and Gingrich in this whole process and I am sure they 
would want me to thank you for that, as well.
    This is a quickly called hearing----
    Chairman Schumer. Their thanks are accepted with gratitude 
and humility.
    Senator Alexander. Thank you. A quickly called hearing, 
quickly drawn up bill. Most of the enthusiasm for this hearing 
and this bill comes, as the Chairman indicated in his remarks, 
because of the Citizens United legislation, which basically 
says that rich non-candidates and corporations have the same 
rights rich candidates have to spend their money in support of 
campaigns.
    This legislation is in the name of full disclosure. I am in 
favor of full disclosure, but there is nothing in the 
Constitution about full disclosure. There is something in the 
Constitution about free speech. I often go by the Newseum down 
the street. Congress shall make no law abridging the freedom of 
speech, it says on the wall. The provisions in this bill chill 
and discourage free speech.
    There is a way to have full disclosure and free speech, and 
that is to take all the limits off campaign contributions. The 
problem is the limits. These new super PACs exist because of 
the limits we have placed upon parties and contributions. Get 
rid of the limits on contributions and super PACs will go away 
and you will have full disclosure because everyone will give 
their money directly to the campaigns and the campaigns must 
disclose their contributions in ways that we have already 
agreed do not discourage free speech.
    I have done some research in preparation for this and I 
found an especially compelling statement before this committee 
that was rendered just exactly 12 years ago today, March 29, 
2000. Some of you were actually here that day. It was given by 
an obscure former Governor who had run for President and who 
had permanently retired from politics, and he came before this 
committee and these were the words that he said. ``I have come 
to Washington to argue one practical proposition, that the 
$1,000 individual contribution limit in our Presidential 
nominating system makes it virtually impossible for anyone 
except the front runner or a remarkably rich person to have 
enough money to run a serious campaign. This has a number of 
bad effects for our democracy. It limits the voters' choices 
and the opportunity to hear more about the issues. It gives 
insiders and the media more say, outsiders less. It protects 
incumbents, discourages insurgents. It makes raising money the 
principal occupation of most candidates, which in turn makes 
campaigns too long. The $1,000 limit was put in place in 1974 
after Watergate to reduce the influence of money in politics. 
It has done just the reverse. I have also come with this 
practical solution. Raise the limit.'' That obscure retired 
former Governor was me.
    And a few years earlier, Senator McCarthy, a better known 
retired politician, came before this committee and said he 
never would have been able to challenge Lyndon Johnson if 
Stewart Mott and others who agreed with him had not given him 
so much money in the 1968 campaign.
    Now, the reason I am talking about limits is because if we 
took the limits off, we would solve the disclosure problem. 
Rich candidates can continue their campaigns. The super PACs 
have actually permitted candidates like Gingrich and Santorum 
and others to continue to run. Presidential races before this 
year were like the Patriots lose the first three games, we tell 
them to get out of the race. If Tiger Woods shoots 40 on the 
front nine, we say, end the Master's. In the NFL and at the 
Master's, you play all the way through to the end. Having money 
is what you need to play all the way through to the end. And if 
Senator Kerry and Steve Forbes have their own money, then 
others ought to be able to contribute their money.
    So, Mr. Chairman, as long as we have a First Amendment to 
the Constitution, individuals and groups have a right to 
express themselves. And the best way to combine free speech 
with full disclosure in a way that does not chill free speech 
is to take off all the limits which would cause most 
contributors to give to campaigns. It would drop the super 
PACs. And it would make this legislation, which chills free 
speech, completely unnecessary.
    Thank you, Mr. Chairman.
    Chairman Schumer. Thank you, Senator Alexander.
    Senator Feinstein.

             OPENING STATEMENT OF SENATOR FEINSTEIN

    Senator Feinstein. Mr. Chairman, I thank you very much.
    Given what we have seen in the Republican primary this 
year, I really believe we must try to pass the DISCLOSE Act. In 
2010, we came close to passing it and it looks like we need 
just one additional vote to move the bill forward now.
    This new Act is a critical step, really, to ensure that 
corporate dollars will not flow in the dark to one candidate 
against another, but instead, our election process will regain 
the transparency it has lost after Citizens United.
    I find this whole hidden, shadowy world of the super PAC to 
be really discouraging, and I suspect it is going to have a 
very discouraging impact on candidates that have not yet run 
for office but might be considering to run for office. There is 
really no way the average person, new candidate, can fight it. 
So if a company does not like what you are doing, whether it is 
a big bank and you are for financial reform, go out and get 
this person with untold, unknown millions of dollars. I do not 
think it is the American method of electing candidates.
    I think this is the first step forward. I was really 
surprised at the Supreme Court, and I want to thank the author 
and I want to thank you and hopefully we can move on with this.
    Chairman Schumer. Thank you, Senator Feinstein.
    Senator Blunt.

               OPENING STATEMENT OF SENATOR BLUNT

    Senator Blunt. Thank you, Mr. Chairman. Thank you for 
holding this hearing today. I appreciate the opportunity to 
discuss the DISCLOSE Act.
    I have some concerns with the bill. As a former Secretary 
of State of Missouri, where I also served as the chief election 
official, I am particularly interested in policies that affect 
elections. I believe this bill would place additional burdens 
on nonprofits as they seek to advocate for public policies. I 
am also concerned, as Senator Alexander was, about the First 
Amendment challenges that I believe this bill would present.
    Before we consider adding new restrictions, I think we 
would be well served to carefully examine our current laws and 
ensure they are having their intended effect. Mr. Chairman, I 
would suggest that might be a good topic for another hearing, 
particularly in this election year, to look at the laws we have 
on the books now.
    I am pleased we are having this hearing. I look forward to 
hearing from the witnesses and thank you for holding it, Mr. 
Chairman.
    Chairman Schumer. Thank you, Senator Blunt.
    Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Chairman Schumer, thank you for the 
hearing. I support the DISCLOSE Act.
    We are not talking about super PACs. We are talking about 
super secret PACs, and the question is whether there ought to 
be any transparency so the people of America know who is paying 
for the information that is being shoveled at them.
    We have seen a dramatic increase in these independent 
expenditures to the point where mere mortals who dare run for 
office have to wonder whether they are going to be overrun by 
some super PAC or some individual or some special interest 
group, regardless of the merits of their campaign or what the 
voters may care for in their district.
    And I think what we are doing here is introducing an 
element into the body politic which is fundamentally 
corrupting. Senators who have to wonder whether this morning's 
speech on the floor or this afternoon's vote or tomorrow's 
amendment just might irritate a Los Vegas casino magnate, or 
two billionaire brothers who made a fortune in oil, or a 
retired plutocrat lounging in Jackson Hole, because tomorrow, 
the world may change for you.
    We have seen candidates in this race already for the 
Senate, for reelection, with more than $5 million being spent 
by March before the election in negative ads by super PACs in 
their States. That is a phenomena which is not conducive to an 
active, positive, and productive debate among voters in this 
country about where this country should go and how it should 
move forward.
    And now, for something totally different, I support the 
DISCLOSE Act, but I really believe that we need to get to the 
heart of the matter, and that is why I have introduced the Fair 
Elections Now Act, public funding. States as diverse as Maine 
and Arizona have voted by referendum to move to public funding. 
Take the special interests and the fat cats out of the picture. 
Shorter campaigns, less money spent, direct contact with voters 
instead of sitting for endless hours on a telephone begging for 
money from strangers, that is what they think is the right 
thing for the future of their States. I think it is the right 
thing for the future of this country.
    Major reform, unfortunately, often requires a major 
scandal. Sadly, this year's campaign for President is building 
up to a major scandal when it comes to fundraising and the 
amount of money spent. Will it be enough? Will it be the 
breaking point for real change? I hope that this bill passes. I 
hope the DISCLOSE Act starts basically lifting the veil on some 
of the expenditures that are taking place. But we need to step 
beyond this or we run the risk of dramatically changing this 
democracy which we all love.
    Chairman Schumer. Thank you, Senator Durbin.
    I just want to thank particularly Senator Udall for being 
here. He has been an active member of the task force, has 
introduced legislation, which does not come before this 
committee, it comes before our most junior member's committee--
--
    [Laughter.]
    Chairman Schumer [continuing]. Chairman Leahy, which would 
undo Buckley v. Valeo, which is the whole decision that started 
us in this somewhat convoluted way of dealing with campaign 
finance reform and has been a real leader here. So we thank him 
for coming and call on him for an opening statement.

               OPENING STATEMENT OF SENATOR UDALL

    Senator Udall. Thank you, Chairman Schumer. This is an 
important bill and I really appreciate you holding a hearing on 
it.
    In January 2010, the Supreme Court issued its disastrous 
opinion in Citizens United v. FEC. Two months later, the D.C. 
Circuit Court of Appeals decided the SpeechNow v. FEC case.. 
These two cases gave rise to super PACs. Millions of dollars 
now pour into negative and misleading campaign ads, and often 
without disclosing the true source of the donations.
    The Citizens United and SpeechNow decisions renewed our 
concerns about campaign finance, but the Court laid the 
groundwork for this broken system many years ago. In 1976, the 
Court held in Buckley v. Valeo that restricting independent 
campaign expenditures violates the First Amendment right to 
free speech. In effect, the Court established the flawed 
precedent that money and speech are the same thing.
    The damage is clear. Elections become more about the 
quantity of cash and less about the quality of ideas, more 
about special interests and less about public service. I don't 
think we can truly fix this broken system until we undo the 
flawed premise that spending money on elections is the same 
thing as free speech. That can only be achieved if the Court 
overturns Buckley or we amend the Constitution. Until then, we 
fall short of the real reform that is needed.
    But we can still do all that we can in the meantime to make 
a bad situation better. That is what we are trying to do with 
the DISCLOSE Act. It is not the comprehensive reform that I 
would like to see, but it is what is possible under the flawed 
Supreme Court precedents that constrain us. The DISCLOSE Act of 
2012 asks the basic and imminently fair question, where does 
the money come from and where is it going? This is a practical, 
sensible measure. It does not get money out of our elections, 
but it does shine a light into the dark corners of campaign 
finance.
    A similar bill in the last Congress had broad support with 
59 votes in the Senate and it passed the House. Now that we are 
seeing the real impact of Citizens United and SpeechNow 
decisions on our elections, the need for this legislation has 
become even more apparent. The downpour of unaccountable 
spending is wrong. It undermines our political process. And it 
has sounded an alarm that is truly bipartisan.
    I recall the debate when we considered the DISCLOSE Act in 
the last Congress. Many of our concerns then were still 
hypothetical. We could only guess how bad it might get. Well, 
now we know. Unfortunately, our worst fears have come true. The 
toxic effect of Citizens United and subsequent lower court 
rulings have become brutally clear. The floodgates to 
unprecedented campaign spending are open and threaten to drown 
out the voices of ordinary citizens.
    Look at what we have seen already, and we are already in 
the primary season. Huge sums of money flooding the airwaves. 
An endless wave of attack ads paid for by billionaires. The 
poisoning of our political discourse. The spectacle of 
501(c)(4), so-called ``social welfare'' organizations, abusing 
their nonprofit status to shield their donors and funnel money 
into super PACs. They spend at will and they hide at leisure.
    The American public, rightly so, looks on in disgust. A 
recent Washington Post-ABC News poll found that nearly 70 
percent of registered voters would like super PACs to be 
illegal. Among independent voters, that figure rose to 78 
percent. Supporters of super PACs and unlimited campaign 
spending claim they are promoting the democratic process, but 
the public knows better. Wealthy individuals and special 
interests are buying our elections. Our nation cannot afford a 
system that says, ``come on in'' to the rich and powerful and 
says, ``do not bother'' to everyone else. The faith of the 
American people in their electoral system is shaken by big 
money. It is time to restore that faith. It is time for 
Congress to take back control.
    There is a great deal to be done to fix our campaign 
finance system. I will continue to push for a constitutional 
amendment. We need comprehensive reform. But in the interim, 
let us at least shine a light on the money. The American people 
deserve to know where this money is coming from and they 
deserve to know before, not after, they head to the polls. That 
is what the DISCLOSE Act will achieve.
    Chairman Schumer, I want to thank you again on this hearing 
and look forward to hearing from our witnesses and ask that my 
entire statement will be put in the record.
    [The prepared statement of Senator Udall included in the 
record]
    Chairman Schumer. Without objection.
    Last, but not least, and we joke about him being the member 
way down there, but his knowledge of all of these issues and 
the fact that the Judiciary Committee is actively involved in 
this issue, particularly on the constitutional side, make us 
really glad that he is a member of this committee. It will help 
us as we move forward greatly in this effort. So Chairman 
Leahy.

               OPENING STATEMENT OF SENATOR LEAHY

    Senator Leahy. Well, thank you, Mr. Chairman. I appreciate 
the fact that we new guys get a chance, also, to speak on this.
    I did join with you and the others in reintroducing the 
DISCLOSE Act. I think it is an important hearing and I 
appreciate you having this. Our efforts to restore transparency 
in campaign finance laws were gutted by a narrow conservative 
activist majority of the Supreme Court and we cannot wait any 
longer. By the stroke of a pen, five Supreme Court Justices 
overturned a century of law designed to protect our elections 
from corporate spending, ran roughshod over longstanding 
precedent, struck down key provisions of our bipartisan 
campaign finance laws.
    And I remain troubled today that the Supreme Court extended 
to corporations the same First Amendment rights of the 
political process that are guaranteed by the Constitution to 
individual Americans. Corporations are not the same as 
individual Americans. Corporations do not have the same rights 
or the same morals or the same interests. They cannot vote in 
our democracy. If you followed them to logic, you would say, 
logically, what the Supreme Court has said about them being 
persons, you would say, well, this country elected General 
Eisenhower as President. Should we not elect General Electric 
as President? We know we have elected a lot of yahoos as Vice 
Presidents. I think of people like Millard Fillmore. Why not 
elect Yahoo!, a corporation, as Vice President?
    The Founders understood this. Americans across the country 
long understood that corporations are not people in this 
political process. And unfortunately, a very narrow majority of 
the Supreme Court apparently did not want to believe what all 
Americans have believed.
    Like all Vermonters, I cherish our democratic process, 
cherish the fact that Vermont has one of the highest turnouts 
for elections of any State in the Union. But we ought to be 
heard as Vermonters and not be undercut by corporate spending, 
but that is exactly what is happening with the waves of 
corporate money being spent on elections around the country. 
And it will continue to happen until we start to take action by 
passing the DISCLOSE Act.
    When I cosponsored the first DISCLOSE Act after the Supreme 
Court's decision in 2010, I hoped Republicans would join with 
Democrats to mitigate the impact of it. We were trying to 
restore much of the McCain-Feingold law. All we needed was to 
have one Republican vote to restore McCain-Feingold, and we 
could have done it. Instead, we did not and they filibustered 
it and we needed that one vote and we did not get it.
    I think this is going to hurt both parties if they are 
unable to do that. It has ensured that the flood of corporate 
money flowing from undisclosed and unaccountable sources, such 
as Citizens United, would continue. And the Chairman mentioned 
the sudden and dramatic effects in the Republican primaries, 
but this could happen on either side, this barrage of negative 
advertisement from so-called super PACs. I would advise my 
colleagues on both sides of the aisle, this uninhibited, 
undisclosed spending is hurting every one of us.
    It is one of the reasons why the American people are so 
turned off on how government is run and politics are run. It is 
going to hurt every single person. But more importantly, it is 
going to hurt the institutions I cherish. The Congress--it is 
going to hurt the ability of Republicans and Democrats to work 
together for the best interests of the country.
    My State of Vermont is a small State. It would not take 
more than a tiny fraction of the corporate money playing the 
airwaves to outspend every single Republican and every single 
Democrat in our State running for anything. That is wrong. You 
know, if the local city council or the zoning board is 
considering an issue of corporate interest, what is to stop the 
corporations from just wiping them out?
    So I would urge my colleagues, whether you are a Republican 
or a Democrat, you have an interest in getting government back 
where everybody knows who is involved in the government, 
everybody knows who is spending in the government, and you have 
a chance for the candidates actually to have their voices to be 
heard.
    I will tell you, if we do not do this, the inability of 
good people in either party to come forward is going to stop 
and the disrespect of our institutions, including the United 
States Supreme Court, will grow, and I can tell you right now, 
this country will suffer.
    Thank you.
    Chairman Schumer. Thank you, and I would like to thank all 
of our colleagues for their excellent statements.
    Now, we will ask our witnesses to come forward. Okay. I 
have a brief introduction for each witness, all of whom are 
well known in this area.
    Mr. Fred Wertheimer is the President of Democracy 21, which 
he founded in 1997. He was previously President of Common Cause 
and has served as a Fellow at Harvard University and visiting 
lecturer at Yale Law School. He has been a nationally 
recognized leader on campaign finance and transparency reform. 
He serves as an analyst at CBS News and ABC News.
    Mr. David Keating is the President of the Center for 
Competitive Politics and former Executive Director of the Club 
for Growth. Previously, he served as Executive Vice President 
of the National Taxpayers Union and Executive Director of 
Americans for Fair Taxation. He founded the SpeechNow.org in 
2007.
    Rick Hasen is a Chancellor's Professor of Law at the 
University of California, the Irvine School of Law, and is the 
author of the Election Law Blog. He has written more than four 
dozen articles on election law issues and several books, 
including the Supreme Court and Election Law. He previously 
taught at Loyola Law School in Los Angeles and at the Chicago 
Kent School of Law.
    Thank you all for coming, gentlemen. Each of your 
statements will be read into the record and we would ask you to 
limit your opening statements to five minutes each.
    Mr. Wertheimer.

STATEMENT OF FRED WERTHEIMER, FOUNDER AND PRESIDENT, DEMOCRACY 
                               21

    Mr. Wertheimer. Chairman Schumer and members of the 
committee, I am Fred Wertheimer, President of Democracy 21, and 
I appreciate the opportunity to testify today in support of the 
DISCLOSE Act.
    If the opportunity arises later on, I would like to address 
Senator Alexander's long-held views about contribution limits, 
but I will focus my comments now on the DISCLOSE Act.
    The DISCLOSE Act restores a cardinal rule of campaign 
finance laws. Citizens are entitled to know who is giving and 
spending money to influence their votes. This fundamental right 
to know has been recognized for decades by Congress in passing 
campaign finance laws and by the Supreme Court in repeatedly 
upholding the constitutionality of the laws.
    In 2010, more than $135 million in undisclosed, unlimited 
contributions were injected into the Congressional race. This 
amount is expected to dramatically grow in 2012 in terms of the 
undisclosed contributions absent new disclosure requirements. 
This has returned the country to the era of the Watergate 
scandals, when huge amounts of secret money were spent in 
Federal elections. Secret money in American politics is 
dangerous money. As the Supreme Court held in Buckley v. Valeo, 
disclosure requirements deter actual corruption and avoid the 
appearance of corruption.
    The DISCLOSE Act would ensure that citizens know on a 
timely basis the identities of and amounts given by donors 
whose funds are being used to pay for outside spending 
campaigns in Federal elections.
    New disclosure laws were enacted during the Watergate era 
to address the problem of secret money in Federal elections, 
and from the mid-1970s until 2010, there was a consensus in the 
country and in the Congress among Democrats and Republicans 
alike in support of campaign finance disclosure. In 2000, for 
example, in response to a disclosure loophole that was allowing 
certain 527 groups to spend undisclosed money in Federal 
elections, a Republican-controlled Congress acted to close the 
loophole. Congress passed the new disclosure legislation with 
overwhelming support from Republicans and Democrats. The House 
vote was 385 to 39. The Senate vote was 92 to six.
    Bipartisan support for disclosure, however, disappeared in 
2010. The policy issues have not changed, but the votes have. 
We urge the Senate to return to the bipartisan approach of 
support for campaign finance disclosure that was the rule for 
almost four decades in the Senate and in the House.
    These gaping loopholes in the disclosure laws were caused 
by a combination of the Citizens United decision and 
ineffectual FEC regulations. This problem has been made all the 
more worse by groups improperly claiming tax-exempt 501(c)(4) 
social welfare organization status in order to keep secret 
their donors. We have petitioned the IRS to change their 
regulations to deal with eligibility for this tax status and I 
would like to enclose those petitions in the record.
    [The information of Mr. Wertheimer included in the record]
    Chairman Schumer. Without objection.
    Mr. Wertheimer. The Citizens United decision was based on a 
false assumption that in striking down the corporate ban, there 
would be effective disclosure for the independent campaign 
expenditures that followed. Justice Kennedy wrote, ``A campaign 
finance system that has corporate independent expenditures with 
effective disclosure has not existed before today.'' That 
effective disclosure still does not exist, and that is what 
will be cured by the DISCLOSE Act.
    There is no constitutional problem with disclosure and no 
constitutional problem with the DISCLOSE Act. The Supreme 
Court, by an eight-to-one vote in Citizens United, upheld 
disclosure for the kinds of expenditures that are dealt with in 
this legislation.
    The Court specifically noted the problems that result when 
groups run ads while hiding behind dubious and misleading names 
and thereby conceal the true source of their funds. The Court 
also explicitly rejected the argument that disclosure 
requirements can only apply in the case of express advocacy or 
the functional equivalent of express advocacy.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Wertheimer included in the 
record]
    Chairman Schumer. Thank you, and you finished exactly in 
five minutes. You are a well rehearsed witness, Mr. Wertheimer, 
as well as a very good one.
    Mr. Keating.

 STATEMENT OF DAVID KEATING, PRESIDENT, CENTER FOR COMPETITIVE 
                            POLITICS

    Mr. Keating. Mr. Chairman and members of the committee, 
thank you for inviting the Center for Competitive Politics to 
present our analysis of S. 2219.
    While the stated goal of the bill is to increase disclosure 
on spending to elect or defeat candidates, the radical proposal 
actually chills speech, forces nonprofits to fundamentally 
alter their fundraising and public advocacy efforts, and hijack 
25 percent or more of the advertising copy during an election 
year if it simply mentions the name of a Congressman. I think 
many of these provisions will generate significant First 
Amendment questions and will generate litigation that has a 
good chance of success.
    Now, perhaps the most infamous provision of the McCain-
Feingold bill was its restriction on the ability of groups to 
even mention the name of a Congressman running for reelection 
within 60 days of a general election or 30 days of a primary. 
This bill would stretch that restriction to the entire election 
year for members of Congress. That change would wreak havoc on 
groups that want to use TV or radio ads to lobby Congress or 
candidates.
    In my testimony, I give the example of an environmental 
group that might want to run an ad urging support for a bill to 
regulate carbon dioxide. Under the bill, it might have to 
disclose all significant donors, several of whom might even 
work for a utility or maybe even a coal company. Now, these 
donors might have supported the group's clean water efforts in 
response to appeals for funds on that basis, yet had not 
thought to earmark their checks. Yet they may be listed on the 
ad itself as supporting the ad when, in fact, they do not 
support any such thing.
    Now, another thing that is not talked about in this bill at 
all, from what I can tell, is the disclaimer requirements, 
which are just totally ridiculous. Consider, under today's law, 
a radio ad that would run right now, when there is no primary 
within 30 days. The ad for this group that I list in my 
testimony, which I made up, American Action for the 
Environment, the radio ad would just say at the end, ``Paid for 
by American Action for the Environment.'' Well, I think most 
Americans would think that is a pretty good disclaimer under 
the law today. You know who is running the ad. You know who 
paid for it.
    But the bill would require this, and it is going to take 
about ten percent of my testimony to read the disclaimer on 
this radio ad. It would have to say something like this, and no 
editing really is allowed. The FEC Commissioners behind me 
could affirm this because the group that I used to work at once 
asked for an exemption from some of these disclaimers and they 
said the FEC could not grant it due to the law.
    It would say, ``Paid for by American Action for the 
Environment, www.AmericanActionfortheEnvironment.org,'' or the 
address or phone number, ``not authorized by any candidate or 
candidate's committee, and I am John Smith''--I am not really 
John Smith, obviously--``the Chief Executive Officer of 
American Action for the Environment, and American Action for 
the Environment approves this message. Major funders are Ronald 
B. Coppersmith and Donald Wasserman Schultz.''
    Now, that disclaimer took about 20 seconds to speak. How 
are groups supposed to purchase a 30-second radio ad if you 
have a 20-second disclaimer? And I have not even mentioned 
groups with longer names, such as the American Academy of 
Otolaryngology, Head and Neck Surgery. This is ridiculous to 
have this kind of disclaimer on a radio ad.
    Now, all this is totally unnecessary. Current law already 
requires disclosure of all spending to the FEC for all 
independent expenditures and electioneering communications and 
all contributions over $200 a year to further such 
communications. I have given examples of this disclosure in my 
written statement.
    Now, there is more in this bill that goes far beyond 
disclosure and adds confusion to an election code and 
regulations and that are already just too complicated. I tell 
people election law makes the tax code look simple by 
comparison. There is a new and, what I consider, indecipherable 
definition of express advocacy and that really should be 
deleted from the bill.
    In conclusion, I want to emphasize that, this bill piles 
new costs on nonprofits and other speakers, costs that are 
certain to chill speech and appear intended to accomplish 
indirectly through costly and arbitrary compliance provisions, 
long disclaimers, what Congress may not do directly under the 
First Amendment, and that is silence dissent and speech. Thank 
you.
    [The prepared statement of Mr. Keating included in the 
record]
    Chairman Schumer. Mr. Hasen. Professor Hasen, excuse me.

 STATEMENT OF RICHARD L. HASEN, CHANCELLOR'S PROFESSOR OF LAW 
 AND POLITICAL SCIENCE, UNIVERSITY OF CALIFORNIA-IRVINE SCHOOL 
                             OF LAW

    Mr. Hasen. Chairman Schumer, Ranking Member Alexander, and 
members of the Rules and Administration Committee, thank you 
very much for the opportunity to be here today to testify about 
the DISCLOSE Act.
    I strongly support the measure as a way of closing 
loopholes and requiring the disclosure of information which 
will deter corruption, provide the public with relevant 
information, and allow for the enforcement of other laws, such 
as the bar on foreign money in U.S. elections.
    The proposed legislation uses high-dollar thresholds and 
enables contributors to tax-exempt organizations to shield 
their identity when making non-election-related contributions. 
These steps ensure that the First Amendment rights of free 
speech and association are fully protected. I hope the Senate 
returns to its prior bipartisan consensus in favor of full and 
timely disclosure.
    We have heard what Justice Kennedy thought the world after 
Citizens United would look like, and unfortunately, that world 
has not materialized. The main problem is that action has 
shifted from PACs and 527 organizations, which have to disclose 
all of their contributors, to new 501(c)(4) and other types of 
501(c) organizations which require no public disclosure of 
contributors. And under the FEC rules, most contributors who 
are funding electioneering communications are not disclosed.
    How serious of a problem is secret money? The Center for 
Responsive Politics found that in 2010, the spending coming 
from groups that did not disclose rose from one percent to 47 
percent since the 2006 mid-term elections and that 501(c) 
spending increased from zero percent of total spending by 
outside groups to 42 percent in 2010.
    Furthermore, with the rise of super PACs, contributors can 
easily shield their identity from the public, hiding behind 
innocuous names like Americans for a Strong America. The public 
does not get the information on who is funding the ads when it 
needs it the most, when it hears the ads.
    Even worse, contributors can shield their identities by 
contributing to a 501(c)(4), which in turn donates to a super 
PAC, as recently happened when nearly half of FreedomWorks' 
super PAC contributions came from its sister 501(c)(4). 
Disclosing that FreedomWorks' contributions came from 
FreedomWorks is not helpful to voters.
    I now turn to the benefits of the bill. The first benefit 
of all disclosure bills is that they can prevent corruption and 
the appearance of corruption. While the first best solution 
might be to return to the days before Citizens United and bar 
corporate spending in elections, disclosure is an important, 
though second-best, alternative to corporate spending limits to 
ferret out corruption.
    Second, disclosure laws provide valuable information to 
voters. This was apparent to California voters recently when 
they turned down a ballot proposition that would have 
benefitted Pacific Gas and Electric. PG&E provided almost $46 
million to the Yes on 16 Campaign, compared to very little 
spending on the other side. Thanks to California's disclosure 
laws requiring top contributors' names to be mentioned, PG&E's 
name appeared on every Yes on 16 ad and the measure narrowly 
went down to defeat. The DISCLOSUE ACT has a similar kind of 
provision.
    Third, the DISCLOSE Act would help enforce other campaign 
finance laws. If you are worried about foreign money in 
elections or conduit contributions, where one person gives 
through another, the only way to find these out is through 
adequate disclosure.
    Finally, let me turn to the question of whether the 
DISCLOSE Act would face First Amendment challenge. We have 
heard that in Buckley v. Valeo and in Citizens United and in 
other cases, the Supreme Court has repeatedly and nearly 
unanimously upheld disclosure laws, going much further than 
just the requirement of disclosure as to express advocacy. But 
the Supreme Court has also stated that if a group can 
demonstrate a history or a threat of harassment, it is entitled 
to a constitutional exemption from those rules.
    As to harassment, in a forthcoming article in the Journal 
of Law and Politics of the University of Virginia, I closely 
analyzed the claims of harassment that have been made in recent 
court cases surrounding controversial ballot measures about gay 
marriage and gay rights. Both of the district courts found that 
harassment is not a serious problem, and if it is, there is the 
entitlement to an exemption.
    The DISCLOSE Act provisions are ingenious in allowing 
contributors to nonprofits to keep information private when 
their money is going to be used for non-election purposes. The 
nonprofit can set up a separate account only for election 
purposes. The DISCLOSE Act sensibly targets the activity, 
contributing money to election-related ads, rather than the 
type of organizational forum. If someone is contributing money 
to run an election ad, that should be disclosed, regardless of 
the name of the organization that is used.
    Thank you again for the opportunity to speak and I welcome 
your questions.
    [The prepared statement of Mr. Hasen included in the 
record]
    Chairman Schumer. Thank you, and I thank all three 
witnesses for their testimony.
    My first question is to Mr. Keating. Mr. Keating, as you 
know, the example Professor Hasen used, where somebody 
contributes a great amount of money to a 501(c)(4), the 
501(c)(4), a shell organization, gives it to the super PAC or 
the 501(c)(3) and just discloses the name of that 501(c)(4), 
your written testimony does not account for that loophole. Do 
you not agree that there is no effective disclosure when a 
501(c)(4) is given a large contribution and a certain 
percentage--a large percentage of that money is used to put ads 
on TV?
    Mr. Keating. Well, I think there are already laws--a law 
against contributing in the name of another. It is already in 
the election laws----
    Chairman Schumer. No, no, no. But what----
    Mr. Keating. If----
    Chairman Schumer. Mr. Keating, let me----
    Mr. Keating. Yes.
    Chairman Schumer. You have got to answer the specific 
question. He said that FreedomWorks, just having FreedomWorks 
be the listing is not adequate. It does not tell us anything. 
You can have a false name in your example. Citizens Against 
Pollution could be funded by people who want to remove 
pollution controls. So just having any name on the ad does not 
tell you anything. The name could be deliberately deceptive. Do 
you disagree with that, that simple proposition that 99 percent 
of all Americans would say, yes, sure, obviously.
    Mr. Keating. So if a group like the Sierra Club runs an ad, 
we need to know, are the donors to the Sierra Club--I mean, 
that is the implied----
    Chairman Schumer. No, but let us say the Sierra Club----
    Mr. Keating [continuing]. Behind the question----
    Chairman Schumer. Let us say the Sierra Club wants to take 
out somebody who is a defender of--in a State where coal is 
used and they set up an ad campaign saying, Citizens for Coal 
Use, and then fund ads against that person, that candidate, 
that incumbent, on an unrelated issue. Disclosure does no good. 
In fact, it is deceptive. Yes, if they use the name the Sierra 
Club, people know what the Sierra Club is. You are using an 
obvious example. But they could set up a shell organization 
with a totally opposite name, the Pollution Club.
    Mr. Keating. And under the law today----
    Chairman Schumer. All that would be disclosed, and you seem 
to be defending it, is the name Pollution Club.
    Mr. Keating. No, that is incorrect, Mr. Chairman.
    Chairman Schumer. That is absolutely correct if they give 
to a 501(c)(4).
    Mr. Keating. No, you are incorrect about that. If it is an 
independent expenditure, that group needs to report the donors 
used for that independent expenditure. That would be listed in 
the FEC filings. So we would know that the Sierra Club gave to 
this front group that you are talking about here.
    Mr. Wertheimer. If I could----
    Chairman Schumer. Go ahead, Mr. Wertheimer.
    Mr. Wertheimer [continuing]. Step in at this point, the 
statute does require contributors to be disclosed. The 
regulations issued by the FEC have gutted the disclosure 
provision.
    Chairman Schumer. Explain how.
    Mr. Wertheimer. That is how--because they have limited the 
disclosure to only individuals who give for the specific 
purpose----
    Chairman Schumer. Exactly.
    Mr. Wertheimer [continuing]. Of running those ads, and no 
one says they do. That is how we wound up with $135 million----
    Chairman Schumer. Right.
    Mr. Wertheimer [continuing]. In undisclosed contributions.
    Chairman Schumer. Correct, and the effect, the practical 
effect is we do not know where this 501(c)(4) money is coming 
from, and we will never know. That is the bottom line, is that 
not correct, Professor Hasen?
    Mr. Hasen. Yes. I think that if you listen to Mr. Keating 
very closely, he talked about disclosure of contributions 
funding independent expenditures.
    Chairman Schumer. Right.
    Mr. Hasen. What is happening, technically speaking, is that 
these groups are running electioneering communications, which 
as Mr. Wertheimer explained, contributions to fund 
electioneering communications are not adequately disclosed 
thanks both to FEC regulations as well as a deadlock on the FEC 
as to how the rules should be----
    Chairman Schumer. So my example is correct.
    Mr. Hasen. I believe so, yes.
    Chairman Schumer. Thank you. Okay. My time is running out, 
and we will try to have a second round, but I want to try to 
stick to the five minutes.
    So my second question just goes to Mr. Wertheimer. Senator 
Alexander and others have suggested removing contribution 
limits for candidates and parties--that was a key part of 
McCain-Feingold--would be a solution. Can you just give us a 
brief sketch of what would happen in the political landscape if 
we did that? I take it, Senator Alexander, your proposal would 
be that then everything would be disclosed. If someone wanted 
to give to a 501(c)(4) or an independent expenditure, there 
would be disclosure of that if we lifted all limits, is that--
--
    Senator Alexander. I am assuming, Senator Schumer, that if 
the limits were lifted, that people would give to campaigns and 
the campaigns and candidates would disclose. There would be no 
reason to give to a political----
    Chairman Schumer. Except----
    Senator Alexander [continuing]. Super PAC or operation.
    Chairman Schumer. Unless you did not want to disclose.
    Senator Alexander. Well----
    Chairman Schumer. Okay. But anyway, why does Mr. Wertheimer 
not just give us a little example of why--a little sketch of 
what might happen, in his opinion.
    Mr. Wertheimer. Well, I think, in my view, that would take 
us back to a system of legalized bribery that we used to have 
years ago, and let me give a few comments from people other 
than me about this.
    The Supreme Court in Buckley v. Valeo said contributions 
were necessary to deal with the reality or appearance of 
corruption inherent in a system permitting unlimited financial 
contributions. An inherently corrupt system is what the Supreme 
Court called a system of unlimited contributions.
    Former Republican Senate Whip Alan Simpson said about the 
unlimited soft money system, the system of unlimited 
contributions to national parties, quote, ``prostitutes ideas 
and ideals, demeans democracy, and debases debates. Who, after 
all, can seriously contend that a $100,000 donation does not 
alter the way one thinks about, and quite possibly votes on, an 
issue?''
    Former Republican Senator Warren Rudman said about the 
unlimited soft money system, ``I know firsthand and from 
working with colleagues just how beholden elected officials and 
their parties can become to those who contribute to their 
campaigns and to their parties' coffers. Individuals on both 
sides of the table recognize that larger donations effectively 
purchase greater benefits for donors.'' Unlimited contributions 
to the parties, quote, ``affect what gets done and how it gets 
done. They affect outcomes, as well.''
    And one last quote from a former colleague, a late former 
colleague of the Senate, Senator Russell Long, the Chairman of 
the Finance Committee, who well knew his way around campaign 
money. He once said, ``The distinction between a large campaign 
contribution and a bribe is almost a hairline's difference.''
    So my view is, we go back to a system of buying results in 
Congress, direct purchases, if we go back to a system of 
unlimited contributions.
    Chairman Schumer. But certainly in--and I am not going to 
ask you to respond to this because my time is up--what Senator 
Alexander, my good friend, who I have tremendous respect and 
affection for--and that is God's honest truth - is suggesting 
we would go back to the old system. Basically, he is saying, 
let us go back to the system with no limits which was in 
existence 30 years ago, right?
    Mr. Wertheimer. It was in existence when we got Watergate.
    Chairman Schumer. Before 1974, right. Okay.
    Senator Alexander.
    Senator Alexander. Thank you, Senator Schumer. Thanks for 
asking Mr. Wertheimer that question. I was going to ask him 
that if you did not.
    Of course, Senator McCarthy in testimony before this 
committee said the following. ``Watergate was cited as an 
example of corruption of the system, although there was nothing 
in Watergate that would have been prevented or made illegal by 
the 1975 Act,'' which was the Act identifying limits on 
contributions.
    I would like to come back to limits on contributions just a 
minute with Mr. Keating. Let me ask you, do you think if the 
DISCLOSE Act as it is written passed, there would be less 
spending by the groups affected on elections?
    Mr. Keating. It is hard to say, Senator. There is no way of 
knowing in advance. I think there probably would be less 
spending. There certainly would be massive disruption in the 
way many of these organizations need to handle their 
fundraising efforts.
    And I did want to mention something, which is what one of 
the other witnesses identified as a problem in the regulations 
or the law. If there is a problem with that, why would you not 
just take a surgical knife and just fix that one small problem?
    I can tell you, I recently worked at the Club for Growth, 
and that group was a qualified nonprofit corporation. Before 
Citizens United, that group, as well as the League of 
Conservation Voters, Planned Parenthood, and some other groups, 
were allowed to do independent expenditures from their general 
funds. We did not raise money for independent expenditures from 
people. We ran independent expenditures out of our general 
budget. Now, that is something that I think most people--most 
Americans would agree that groups like--whether it is the 
Sierra Club or something else--should be able to fund these ads 
out of their own budget.
    If there is consensus that the problem with disclosure is 
created by a vague law or the regulations being vague about 
raising money for independent expenditures or electioneering 
communications, then why not just fix that one thing? This bill 
goes way beyond that, way beyond that, to cover anything that 
is run during an entire election year.
    Senator Alexander. Mr. Keating----
    Mr. Keating. I think that goes too far.
    Now, as far as----
    Senator Alexander. Mr. Keating, you are using up all my 
time.
    Mr. Keating. Oh, I am sorry.
    Senator Alexander. Let me ask you this question. Do you 
think if we took all the limits off contributions to campaigns, 
do you think that would tend to dry up super PACs?
    Mr. Keating. I think a lot of this money going to super 
PACs would go directly to the candidate. I do not have any 
doubt in my mind, because----
    Senator Alexander. And if it went to the candidate, it 
would be fully disclosed, is that right?
    Mr. Keating. Absolutely.
    Senator Alexander. Under current rules. On limits, I have a 
little different view than Mr. Wertheimer and I have a little 
different experience than he does. I have actually run in a 
Presidential campaign with limits and in other campaigns, and 
here is the way it works. Because of the limits in 1995, when I 
was a candidate, I went to 250 fundraisers to try to get money 
from people who could not give more than $1,000. So I spent a 
lot of time with people who could afford to give $1,000, 70 
percent of my time, probably, over a year. That is 250 events. 
That raised $10 or $11 million.
    At the same time, Steve Forbes was able to spend $43 
million of his own money. That is what he did in 1996, and in 
2000, he spent $38 million of his own money.
    I told that to Senator Kerry when I was on the Harvard 
faculty in the early 2000s and I said, you know, there has 
never been a credible candidate for President who spent his own 
money, and if you are ever in that position and you did it, it 
would probably help you. He was in that position in 2003. 
Howard Dean was beating him pretty badly in terms of the amount 
of money raised. Dean had raised $14 million, Kerry $4 million, 
and the media was saying, Kerry cannot raise money. Therefore, 
he will not make a good President. Kerry put $6 or $7 million 
of his own money in and won the Iowa caucus and became the 
nominee.
    I watch FOX and MSNBC sometimes when I am down in the gym 
with Senator Schumer watching television and they run ads 
regularly, just the way that--I mean, their broadcasts are ads, 
in many cases, for a political point of view. That is their 
right to do. In countries where we do not have a democracy, the 
first thing the leaders do is to take over the television 
stations and keep everybody else from having enough money or 
resources to advertise their views.
    So it seems to me that as long as we have a First 
Amendment, as long as we have a First Amendment that permits 
Steve Forbes, a fine American, John Kerry, a fine American, and 
others to spend their own money, that all we are doing with 
limits is turning Washington into a city of panderers for 
$1,000 and $2,000 contributions. Before 1975, we did not spend 
all our time at fundraisers. After 1975, Congressmen did, and 
the only reason you do is because you cannot raise money in 
sufficient amounts to run a campaign that buys enough 
television time to compete with the ads the TV stations are 
already running or the ads that rich Americans might buy 
because they have the money themselves.
    So taking the limits off would solve almost all of the 
disclosure problem because the money would then be given to 
candidates and campaigns and more people would participate, 
campaigns would run longer, as they have this year in the 
Republican primary, more voters would have a chance to vote, 
and elected officials would spend a lot less time with people 
who are trying to give them money.
    Chairman Schumer. Thank you, Senator Alexander, but just 
one point I would make. If you do not--still, if you do not 
require disclosure of the super PACs, there will be people who 
will want to give undisclosed, so you will still have that 
ability to do it. But if you want to give a million dollars to 
the candidate, you will have to disclose it.
    Senator Alexander. Yes. If you give to the President's 
super PAC, you have to disclose that.
    Chairman Schumer. So my only question, just for 
clarification, because he has put out an alternative, is are 
you recommending that there be some kind of disclosure in the 
501(c)(4)s, (c)(6)s, (c)(3)s, in addition to removing the 
limits?
    Senator Alexander. If you are willing to remove the limits, 
I am willing to discuss with you what the disclosure definition 
ought to be.
    Chairman Schumer. Thanks. Okay. I appreciate that.
    Senator Feinstein.
    Senator Feinstein. I have been sitting here reflecting on 
the change in times. Mr. Keating mentioned that disclosure, 
sunlight, knowledge, was a radical idea, and I was really taken 
aback by that because I do not see how it possibly can be. This 
bill is modest. You can give under $10,000 without disclosure 
to a super PAC. It is over $10,000. Now, someone that 
contributes over $10,000 generally has some kind of motivation 
to contribute. The disclosure simply allows individuals to look 
at this and see who is supporting a candidate or a cause. What 
about this is such a radical idea, Mr. Keating?
    Mr. Keating. Well, Senator, it sounds like I may have been 
misinterpreted or I misspoke, but I was talking about the bill 
itself, not the concept of disclosure being a radical concept.
    There are provisions in this bill that I consider radical 
and I think perhaps the most radical is the government-mandated 
disclaimer that goes on for 20 seconds or more, in many cases, 
on a radio ad. Now, this would cover all radio ads that mention 
the name of a Congressman, something as simple and innocuous as 
a bill being before Congress and it says, ``Call Congressman 
Smith and urge him to vote for the bill.'' You would have to 
run an ad at least a minute long to even hope of getting your 
message across.
    So you are going to drive up the costs of these ads, and I 
do not understand why we need a disclaimer that goes on for 20 
seconds when something as simple as ``Paid for by Americans for 
Action for the Environment'' does the trick. To me, that is a 
radical approach, requiring groups to state a bunch of 
bureaucratic nonsense in a disclaimer that drives up the cost 
of advertising by a tremendous amount.
    Senator Feinstein. Well, I am running for reelection, in a 
big State, very expensive for television, and yet I should be 
responsible for the ads I put up on television. Therefore, the 
disclaimer is important because it says to people that the ad 
is speaking for me and I take responsibility for it. What is 
radical about that?
    Mr. Keating. Well, I think what is radical about it is the 
bill specifies a disclaimer that goes on seemingly forever when 
it could be said in far fewer words.
    Senator Feinstein. Mr. Wertheimer.
    Mr. Wertheimer. Mr. Keating has focused on the radio ads. 
Let us move to the TV ads for a minute. The TV ads require the 
head of an organization to take responsibility for the ad in 
the same way that you have to take responsibility for your ad, 
so that there is accountability and responsibility for campaign 
ads. The TV ads also require the ad to list the top five 
donors, but that can be done in a crawl and would take up no 
time from the content of the ads.
    With respect to the radio ads, there were provisions added 
last time that are still in this bill that give the FEC the 
power through regulation to exempt the kinds of ads that Mr. 
Keating----
    Mr. Keating. That is incorrect.
    Mr. Wertheimer. It is correct. It is in the bill.
    Mr. Keating. No, it is not. For radio? It is not correct. 
It only exempts the major donor listing, not the rest of the 
disclosure.
    Mr. Wertheimer. Well----
    Senator Feinstein. My time----
    Chairman Schumer. Let me just--there is a hardship 
exception which the FEC can use for just what you are talking 
about. You are correct, Mr. Wertheimer.
    Senator Feinstein. If the disclosure is too long or 
burdensome----
    Chairman Schumer. Now, it takes eight seconds. Of course, 
if you say it very slowly, you could stretch it out to 20 
seconds if you should want to. It takes eight. There is a 
hardship exception.
    Senator Feinstein. Yes, please.
    Mr. Hasen. I would just add that as a fellow Californian, I 
can tell you that we have rules very much like this. We hear 
political ads on the radio all the time. They mention the top 
two funders. It is really not a burden. You can get your 
message out, and everyone does.
    Senator Feinstein. Yes. I was--well, my time is up, but I 
was just reading----
    Chairman Schumer. You have an extra couple of minutes 
because----
    Senator Feinstein. I was just reading about the PG&E case, 
where--oh, I wish I had it in front of me. I put it down 
somewhere. Oh, here it is. That the PAC raised approximately 
$46.2 million, all of which was donated by PG&E. Now, PG&E is a 
good company. It has fallen on very hard times for certain 
things. I do not want to get into that. But at one point, it 
donated $9 million in one day. There is a consumer group called 
TURN, The Utility Reform Network. They were the main opponents 
and they were able to raise $33,000. The PAC outspent 500-to-
one, which amounts to approximately $25 per vote, and they 
lost. And I think the reason they lost--this is my opinion--is 
because of the disclaimer, and then everybody was able to come 
to the conclusion, this is not fair. This is the company about 
which this initiative is and it is not fair.
    Now, the company is not necessarily an individual speaking. 
It is a group. It is a kind of oligarchy, if you will. It is a 
board of directors, I would assume, who makes that decision. 
But it seems to me that this is a very good example of 
disclosure. In other words, the entity that does the super PAC 
without disclosure has a very unfair position on the ballot. 
You would disagree with that, Mr. Keating, would you?
    Mr. Keating. Well, I am not familiar with the details of 
California law, but if it worked there, then great. I have no 
problem with that.
    Senator Feinstein. Thank you, Mr. Chairman.
    Chairman Schumer. Just two points. I believe our law is 
quite the same as California. And second, the hardship 
exemption I mentioned, if for some reason the man's name is 
Richard Q. Quiddlehopper the Fourteenth and it takes 20 seconds 
to say their name, the hardship exception is on page 21, lines 
five through 14. It is in the bill.
    With that----
    Senator Blunt. And, Mr. Chairman, is the hardship exemption 
you are talking about eight seconds? If it takes more than 
eight seconds?
    Chairman Schumer. They say if it takes----
    Senator Feinstein. Read the language.
    Chairman Schumer. I will read it. If the communication is 
transmitted through radio and is paid for in whole or in part 
with a payment which is treated as a campaign-related 
disbursement under 324, the top two funders list, if 
applicable, unless, on the basis of criteria established in 
regulations by the Commission, the communication is of such 
short duration--perhaps a 30-second ad--that including the top 
two funders list in the communication would constitute a 
hardship to the person paying for the communication by 
requiring a disproportionate amount of content of the 
communication to consist of the top two funders--I imagine if 
you had a 30-second ad with 20 seconds, the disclosure would 
take 20 seconds, that would clearly be a hardship. I would be 
happy to say on the floor that that is the legislative intent.
    Senator Blunt. And I guess the FEC would maybe decide that.
    Mr. Wertheimer, I do not want to take a lot of time on 
this, but let me be sure I understand. You said earlier on 
disclosure, the statute currently required disclosure--that the 
FEC, I think, has gutted the disclosure.
    Mr. Wertheimer. The contribution disclosure.
    Senator Blunt. And how has the FEC gutted the contribution 
disclosure?
    Mr. Wertheimer. By defining the only contributions required 
to be disclosed as the contributions that were given for the 
specific purpose of making campaign-related expenditures.
    Senator Blunt. And these would be contributions to these 
various groups----
    Mr. Wertheimer. Organizations, yes.
    Senator Blunt [continuing]. Like the Sierra Club or 
Democracy 21 or whatever other group might spend money for that 
purpose.
    Mr. Wertheimer. Yes.
    Senator Blunt. Okay. Do you think we should be having a 
hearing on enforcing the statute?
    Mr. Wertheimer. I think you ought to have a separate 
hearing on fundamentally reforming the Federal Election 
Commission, but I do not think a hearing on enforcing the 
statute on this regulation is going to get us to solve the 
problem of disclosure.
    Senator Blunt. But the statute, you said, required 
disclosure.
    Mr. Wertheimer. Under the current rules of the statute, 
there is a contribution disclosure provision which has 
resulted, as I said, in more than $130 million not being 
disclosed.
    Senator Blunt. All right. Let me be sure I understand. Mr. 
Keating made a statement that groups like the Sierra Club or 
Club for Growth should be able to run ads out of their own 
budget, is that a fair----
    Mr. Keating. Yes.
    Senator Blunt. And do you all agree with that, that groups 
like the Sierra Club or Club for Growth should be able to run 
ads out of their own budget, just a yes or no.
    Mr. Wertheimer. Yes, and the statute accounts for that.
    Senator Blunt. And Mr. Hasen?
    Mr. Hasen. Yes. I think so long as they apply with the 
applicable disclosure rules, sure.
    Senator Blunt. And what would those be, Mr. Keating, the 
applicable disclosure rules for running ads out of your own 
budget?
    Mr. Keating. Well, you have to--if it is an independent 
expenditure, you must list the independent expenditure to the 
FEC within 48 hours, or 24 hours, depending on when it was run, 
and if it is an electioneering communication, you need to 
disclose the expenditure.
    If money was given for the independent expenditure, and 
this is where I alluded to the confusion both from the statute 
and the regulations, different people take different 
interpretations of what that means. I can tell you that when I 
worked at Club for Growth, we interpreted that to mean that if 
you raised money just generally for an independent expenditure, 
the donor would have to be disclosed. Now, other people may 
take a different view of that. So that is how our group took 
the view.
    So when we ran independent expenditures, we only did it 
from our general funds. We never asked anyone for money for 
independent expenditures----
    Senator Blunt. And from your general funds, you did not 
disclose all the donors to Club for Growth on any report 
anywhere?
    Mr. Keating. That is correct, because no money was given 
for independent expenditures. Now, Club for Growth today has a 
super PAC, Club for Growth Action, and it uses that entity to 
raise money for independent expenditures, and all the donors to 
that organization are disclosed.
    Senator Blunt. So the super PAC donors for Club for Growth 
are disclosed, but the regular donors for Club for Growth or 
the Sierra Club, the two examples we have used here, are not 
disclosed.
    Mr. Keating. Correct. Now, if a group did raise money for 
independent expenditures, you know, it is my view that this 
would have to be disclosed under the current law.
    Senator Blunt. And other----
    Mr. Keating. Other people may interpret the requirements of 
the law and regulations differently and may not disclose.
    Senator Blunt. And under the law we are talking about 
today, is it accurate that a member of the House or Senate, 
that some groups, outside groups--which groups cannot mention 
their name for the entire year of the election?
    Mr. Keating. Well, any group, unless it would want to--if 
we are talking about this bill becoming law----
    Senator Blunt. Right.
    Mr. Keating [continuing]. Any group that wanted to run an 
ad during an entire election year, if they spend more than 
$10,000, would have to meet the requirements of this Act.
    Senator Blunt. And how would you mention the name of a 
House member or Senator?
    Mr. Keating. Well, you could not unless you complied with 
all the provisions in this bill.
    Senator Blunt. Mr. Wertheimer, do you want to say something 
about that?
    Mr. Wertheimer. Well, there are no restrictions in this 
bill. There are disclosure requirements.
    Senator Blunt. Well, there are restrictions that say you 
cannot mention somebody's name from January 1 until the 
election. That seems like a pretty big restriction to me.
    Mr. Wertheimer. That is not a restriction in the bill.
    Senator Blunt. It is not in the bill?
    Mr. Wertheimer. The bill does not have restrictions. The 
bill has disclosure requirements if you run ads.
    Mr. Hasen. The bill provides a definition of an 
electioneering communication, which already exists in the law, 
and extends it. But if something is triggered as an 
electioneering communication, all that this does is provide for 
disclosure of information. It does not prevent anyone. There 
were limits before in the McCain-Feingold law. Those were 
struck down----
    Senator Blunt. So we take the 60 or 90 days that were--30 
or 60 days in the law now and we take that same principle and 
expand it for an entire year?
    Mr. Hasen. As to disclosure to the election year, that is 
right.
    Senator Blunt. So I would think that members of the House 
and Senate would like that, that they could not have their name 
mentioned without these restrictions for the entire election 
year. That is half a House term and one-sixth of a Senate term, 
and the one-sixth of the Senate term you are running for 
election.
    Mr. Keating. There is----
    Senator Blunt. All right. I think I am out of time, Mr. 
Chairman.
    Chairman Schumer. Thank you, Senator----
    Mr. Keating. Senator, if I might add one other observation, 
there is no limiting principle to this. I mean, why could it 
not be both years? Why could it not be at all times? I do not 
see any limiting principle here.
    Chairman Schumer. Senator Udall.
    Senator Udall. Mr. Wertheimer, under existing law, have 
primaries been held where super PACs ran ads and their donors 
were not disclosed until after the primary? And if that is so, 
is this not a problem and how does the bill deal with it?
    Mr. Wertheimer. Well, I think it was a big problem in this 
election. The Iowa caucuses and the New Hampshire, South 
Carolina, and Florida primaries were all run and over with 
before we had the first disclosures of the super PACs of who 
their funders were, and that was because the way the law 
currently functions, in an off-election year, a PAC only 
discloses semi-annually and at the end of the year. So all of 
the money raised in the six months--the last six months of 
2011, there was no disclosure of the donors until January 31.
    The bill fixes that by basically requiring disclosure to be 
made when the expenditures are made. Then you have to disclose 
the contributors, as well. So it does solve the problem of that 
serious disclosure problem for super PACs that existed in this 
election.
    Senator Udall. Now, the 2010 elections, and I did not look 
at all of these, but I notice, and I think Senator Schumer, 
Chairman Schumer will remember this, I believe Senator Bennet, 
our friend out in Colorado, told us that the combined 
expenditures, total independent expenditures, far overwhelmed 
both--the totals for both candidates, both Democrat and 
Republican.
    Do you see, when we are moving down the road, as we get 
into 2012 and 2014, where we have elections where the combined 
spending of super PACs and independent expenditures are well 
beyond what the candidates are spending? Is this a good trend? 
Is this something that better informs the voters about what the 
candidates' positions are? Do you think this is good for 
democracy? Mr. Wertheimer.
    Mr. Wertheimer. No, nor do I think the solution to it, as I 
said before, is to remove the contribution limits. You know, 
the studies have shown that almost all of the super PAC ads are 
negative ads, negative attack ads, and that leads me to believe 
that even if you did remove the contribution limits, you would 
still have super PACs raising large amounts of money and 
running negative ads and also potentially (c)(4) organizations.
    But we believe that one of the steps that should be taken 
and can be taken is to end the candidate-specific super PACs of 
the type we have seen in the Presidential election. Those super 
PACs can be eliminated. When the Supreme Court ruled in 
Citizens United that corporate independent expenditures took 
place, they also said that they had to be independent of the 
candidate and they left to Congress to define what is 
independent, what is coordination. Once again, we have very 
weak and problematic coordination rules. Even under those 
rules, we believe a number of the candidate-specific super PACs 
are operating illegally.
    But we clearly feel that you could define super PACs in a 
way that they are not going to be run by close associates of 
the candidate and they are not going to be having their money 
raised by the candidate's campaign. These super PACs are not 
independent PACs. They are arms of the campaign and I think 
most people recognize that. And they are hiding behind their 
own views of what constitutes coordination under the law and 
also under a realization that the law is not going to be 
enforced against them by the FEC.
    The Supreme Court, when it talked about independent 
expenditures in the past, was very clear. It had to be wholly 
independent, fully independent, truly independent. These super 
PACs are anything but those concepts.
    Senator Udall. And I know I only have a couple of seconds 
here, but it seems to me that in reading about the super PACs 
in the Presidential campaign, these are individuals who worked 
very closely with the candidate in many cases. They may have 
left the campaign recently, or left official officer recently, 
or were the chief of staff within the last year. These are the 
kind of people that are running the super PACs and amassing the 
money and putting them together, are they not?
    Mr. Wertheimer. That is correct.
    Senator Udall. Most of the cases----
    Chairman Schumer. If my colleague would yield----
    Senator Udall [continuing]. Most of the cases--yes, 
please----
    Chairman Schumer [continuing]. In one case, it was the 
candidate's father who ran the super PAC, as I understand it, 
is that correct?
    Mr. Wertheimer. Well, he was the major--overwhelmingly 
major funder of it.
    Chairman Schumer. Yes. Sorry. Go ahead.
    Mr. Keating. Well, I think this is a strange concept, that 
somehow a father can corrupt the son through a donation. There 
is another provision we have in the law that a husband can run 
but could not take a contribution from his wife because, 
presumably, his wife might corrupt him by giving him a 
contribution that is too large.
    As I said earlier, the election law has some very strange 
provisions in it. There are things that are incredibly vague. I 
think we have heard the call for tax code simplification. One 
of the things we need to have is election law simplification. 
Even though Fred Wertheimer is a student of this area for many 
years, he is saying some things that are, I think, misleading.
    For example, the idea that a campaign manager can go to a 
super PAC--there is a restriction in the regulations on the 
definition of an independent expenditure. In that regulation it 
says you cannot have someone who is going from a campaign to a 
PAC and then working on that independent expenditure for a 
period of days, I forget the number, I think 90 or 120. So 
there are restrictions. There is no evidence that these super 
PACs are illegally coordinating.
    Of course, people who know, understand or maybe support 
strongly these candidates may feel strongly about starting up 
such a group, so that is not a surprise.
    The final thing that I would like to observe is money is 
not everything. You look at the Republican primary for 
President this time and you look at candidates who soared 
during this primary, and it was often on the strength of their 
performance in the debates, and a lot of people were watching 
these debates. So there are other ways to get information out 
other than just money, but money is very important. It is part 
of speech, and I think the increased money that we have in this 
primary that we are seeing going on today has been a good 
thing. Turnout is up. There is more information for voters. 
There have been more front runners. It has been a very 
competitive race.
    Senator Udall. Mr. Wertheimer, would you like to respond to 
that, just briefly?
    Mr. Wertheimer. Well, I think there is one example where a 
major fundraiser for the Romney campaign left the campaign and 
a few days later went to work for the Romney super PAC. Now, if 
you think that is illegal, I would be interested, and maybe you 
would do something about it.
    But the way this has worked is that former close political 
associates of the candidates, whether it is Mitt Romney or 
President Obama, have left or have set up these super PACs. In 
the case of President Obama, two former White House staff 
people left the White House and a few months later set up 
Priorities USA Action. And this has happened over and over 
again, where the people who are running them are closely tied 
to the candidates.
    You also have--I mean, in the case of President Obama and 
Mitt Romney, they are sending their top aides to these 
fundraising events. Now, they are claiming that, well, we are 
not there to solicit unlimited money for the super PACs. We are 
only here to ask for $5,000. But the reality of what is going 
on here is that they are coordinating with the expenditures of 
those fundraising events. I mean, I think that happens to be 
blatant.
    So this is happening all over the place. Everyone is doing 
it. That is not good. That does not make it right. And in the 
end, I think the highest priority here is to protect the 
interests of the American people, not the Democratic party or 
Democratic candidates or the Republican party or Republican 
candidates. The American people have the bottom-line stake here 
and they have a right to know who is putting up the money and 
who is spending it to influence their votes.
    Chairman Schumer. Well, I had hoped we could have a second 
round here of questions, but they moved up the vote. It started 
at 11:15, so we are going to have to vote. So I hope people 
will submit questions in writing. There are a lot more 
questions that I had.
    I also hope we can move this bill to the floor in a 
relatively short period of time. I think it is a really 
important issue. My worry--this is me speaking--I think that 
what has happened after Citizens United is corroding the very 
essence of our democracy. And when a handful of people--free 
speech is not an absolute. You cannot scream ``Fire!'' in a 
crowded theater falsely. We have libel laws. We have anti-
pornography laws. And when in the name of free speech a handful 
of individuals can have such a hugely disproportionate effect 
on the election, undisclosed, I think that corrodes the very 
roots of our democracy. I worry about the future of this 
country in terms of accountability. So in at least my view, and 
I take the liberty as Chairman of making a closing statement, 
is that we have to move forward.
    With that, without objection, the hearing record will 
remain open for ten business days for additional statements and 
documents submitted for the record. We also request that our 
witnesses respond in writing to additional written questions 
from committee members.
    I want to thank my colleagues for participating, Senator 
Alexander, Senator Udall. And I want to thank our witnesses for 
a very illuminating discussion.
    And with that, the committee is adjourned.
    [Whereupon, at 11:33 a.m., the committee was adjourned.]


                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

             THE ``SENATE CAMPAIGN DISCLOSURE PARITY ACT''

                              ----------                              


                       WEDNESDAY, APRIL 25, 2012

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:39 a.m., in 
Room 301, Russell Senate Office Building, Hon. Charles E. 
Schumer, chairman of the Committee, presiding.
    Present: Senators Schumer, Udall, and Alexander.
    Also Present: Senator Tester.
    Staff Present: Jean Bordewich, Staff Director; Josh 
Brekenfeld, Deputy Staff Director; Adam Ambrogi, Chief Counsel; 
Veronica Gillespie, Elections Counsel; Kelly Fado, Operations 
Oversight; Julia Richardson, Counsel; Nicole Tatz, Professional 
Staff; Lynden Armstrong, Chief Clerk; Matthew McGowan, 
Professional Staff; Jeff Johnson, Staff Assistant; Mary Suit 
Jones, Republican Staff Director; Shaun Parkin, Republican 
Deputy Staff Director; Paul Vinovich, Republican Chief Counsel; 
Michael Merrell, Republican Elections Counsel; Lindsey Ward, 
Republican Professional Staff; Trish Kent Republican 
Professional Staff; and Rachel Creviston, Republican 
Professional Staff.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. The Rules Committee shall come to order, 
and good morning, everybody. I would like to thank my friend, 
Ranking Member Alexander, for joining me at this hearing to 
discuss the Senate Campaign Disclosure Parity Act, S. 219, 
introduced by Senator Tester last year.
    The legislation we are going to discuss today is, in my 
opinion, a no brainer. It is non-controversial, will save 
taxpayers about half a million dollars a year, and has wide 
bipartisan support. It has 24 co-sponsors from both parties, 
including our Committee colleague, Senator Cochran, and six 
other Republicans.
    Senator Tester is here today, and without objection, I 
would like to welcome him on the dais for the hearing. I 
strongly applaud my colleague from Montana for pushing this 
bill because it will cut government spending, strengthen 
campaign disclosure and make senators comply with the same 
filing requirements as every other federal candidate.
    The current paper-based filing procedure for Senate 
candidates is a relic from an earlier time. Senate candidates 
are required to submit their campaign reports on paper to the 
Secretary of the Senate, who then has to scan that information 
and e-mail it to the Federal Election Commission, which prints 
it out and mails it to a private contractor. Finally, on 
receiving thousands of pages in the mail, a private contractor 
manually types the information into a searchable format and e-
mails it back to the FEC, which posts it on their online 
database.
    Needless to say, the process is cumbersome, wasteful and 
time consuming. I strongly believe that timely disclosure of 
campaign finance reports is crucial to safeguard the integrity 
of our elections. This bill helps do that. When the legislation 
passes, Senate candidates will finally join candidates from the 
House and for the president, being required to file their 
campaign reports electronically and directly with the FEC 
rather than indirectly and on paper with the Secretary of the 
Senate.
    Not only is e-filing more reliable and makes campaign data 
available sooner, it also creates significant savings at a time 
when both parties are searching for ways to reduce our national 
debt. We will save about $100,000 a year, and probably even 
greater savings, although not in the CBO way. We will free up 
staffers to perform other functions.
    The FEC estimates it would save them approximately $430,000 
a year from eliminating the need for outside contractors who 
convert the scanned files into the FEC's electronic database. 
It would free up two full-time agency positions and would help 
them with their supply situation.
    The FEC has included this policy change in its legislative 
recommendations for Congress for years. Now currently a handful 
of senators from both parties already voluntarily e-file their 
campaign reports with the FEC, so we know it works. And as a 
sign of my own commitment to this legislation, I have recently 
begun e-filing my reports. Is there any good reason to oppose 
the legislation? I cannot think of one. But in the past when 
the bill was brought up, it was sunk by controversial, 
completely unrelated amendments, or simply blocked. Senator 
Alexander and I have worked to try and avoid that on bills like 
this, and by fortunate coincidence, we are the two ranking 
members of the Rules Committee, so I hope we can get this bill 
done quickly.
    Senator Tester's legislation is common sense, bipartisan, 
and I hope we can all agree on it and do it. Before we turn to 
Senator Tester to make a statement and the panel of experts, I 
would like to call on my friend and colleague Senator 
Alexander. We are so close. This is the third time we are 
meeting this morning already.
    Senator Alexander. And I am sure not the last.
    Chairman Schumer. And not the last.

             OPENING STATEMENT OF SENATOR ALEXANDER

    Senator Alexander. Thanks, Mr. Chairman. Thank you for 
having the hearing. Senator Tester, welcome, and welcome to the 
witnesses. I will ask consent that my entire statement be put 
in the record----
    Chairman Schumer. Without objection.
    Senator Alexander [continuing]. And make just these 
comments. I support this legislation. I hope we can bring it 
out, report it quickly, bring it to the floor. I have 
previously co-sponsored legislation like this. This bill is 
better. It has less extraneous matter on it, and I think 
therefore, it will be better received by the Senate.
    It is possible that as it makes its way through the Senate, 
there will be other common sense bipartisan suggestions for how 
to improve our electoral process, and at that point I hope we 
can consider those. But I compliment the chairman, Senator 
Tester, for their work on this. I look forward to joining them 
and trying to turn it into a law.
    Senator Schumer. Senator Tester, we welcome you to the 
Committee, and thank you for your leadership here. Your entire 
statement will be read in the record, but feel free to proceed 
as you wish.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Chairman Schumer, and Ranking 
Member Alexander. It is a pleasure to be here today with two of 
my favorite senators. Thank you very much for holding this 
hearing I think on an important issue.
    I will apologize first. I have a very important Veterans 
hearing that I have to go to, so when I get done with my 
statement, I am going to have to scoot. But as far as S. 219 
goes, I think Congress has an obligation to be as transparent 
and as open as possible. And at a time when we are looking to 
save some money, we all share the responsibility for 
identifying places to save taxpayer dollars.
    This is a rare opportunity that we have in both cutting 
spending and improving transparency here in Washington, and 
that's exactly what S. 219, the Senate Campaign Disclosure 
Parity Act, will do. My bill requires Senate campaign 
committees to file their campaign finance reports directly and 
electronically with the Federal Elections Commission, rather 
than first filing on paper with the Secretary of the Senate.
    This bill would bring Senate campaign reporting and 
transparency into the 21st Century by requiring Senate 
candidates to do what presidential and House candidates have 
been doing since 2001. In the Senate, we have long exempted 
ourselves from mandatory electronic filing of campaign reports, 
holding fast to an outdated system of filing our reports with 
the Secretary of the Senate.
    The Secretary of the Senate then prints out reports and 
delivers reports to the FEC. The FEC then reenters the reports 
into their computer databases. The system is redundant and it 
is wasteful. The FEC estimates it would save over $430,000 a 
year if they received the reports directly in electronic form 
from the candidates.
    I also have serious concerns about the time delays that are 
a direct result of the current system of disclosure. Citizens 
are unable to view Senate candidate campaign finance 
information until weeks or even months after the data is 
initially filed. For example, campaign finance data filed in 
the fourth quarter prior to a general election is typically not 
accessible to the public until the following February, long 
after the election has taken place.
    In Montana, accountability and transparency are expected 
from our elected officials and candidates for public office. We 
expect to know what our elected officials are up to and who 
they are raising money from. That is why I have led the charge 
here to bring more sunlight to Senate campaigns, because I feel 
so strongly about adding more accountability to Senate 
campaigns. I already filed my campaign finance disclosure 
electronically with the FEC, and as the chairman pointed out, 
so do many other--so do many of the co-sponsors of this bill.
    If I am going to put this in one sentence, I would say 
this. We look for common sense measures in the Senate to be 
done. I think the public expects us to do things that make 
sense. This makes sense. Thank you for allowing me to be a part 
of your Committee Chairman Schumer. Thank you for your 
leadership, Senator Tester. Would you like to make a brief 
statement, Senator Udall?
    Senator Udall. No, but I was fortunate to be here and to 
hear Senator Tester's statement, and he has moved me, and I am 
going to join as a co-sponsor on his legislation because of his 
excellent statement here, even before hearing these 
distinguished witnesses.
    So Senator Tester, you have one more. I believe you have 
24. I guess I am number 25 here, to try to move it along.
    Chairman Schumer. But a very important 25. I think this 
seals the deal. Thank you. And we know you have to leave, 
Senator Tester, but thank you for being here.
    Senator Tester. Thank you.
    Chairman Schumer. Okay, let me introduce our two witnesses. 
Ms. Nancy Erickson, who we all know, and I think I can speak 
for all of us, know and love, has served as Secretary of the 
Senate since 2007. She is only the sixth woman to hold the 
position. She worked for 16 years in the office of former 
Senator Tom Daschle in various legislative scheduling 
constituent outreach services. As Secretary of the Senate, she 
oversees the filing of Senate candidates' campaign finance 
reports.
    Paul Ryan is the senior counsel at the Campaign Legal 
Center, where he has worked since 2004. He is the former 
political reform director at the Center for Government Studies 
and an expert on campaign finance and election law, and he has 
litigated many key cases, published numerous articles, and 
testified before Congress on these issues.
    Both witnesses' statements will be read into the record in 
their entirety, and Ms. Erickson, you may proceed.

  STATEMENT OF THE HONORABLE NANCY ERICKSON, SECRETARY OF THE 
                             SENATE

    Ms. Erickson. Good morning. I appreciate this invitation to 
discuss the impact that the implementation of S. 219, the 
Senate Campaign Disclosure Parity Act, would have on the Office 
of Public Records, one of 26 departments under the Office of 
the Secretary.
    Current law requires the secretary to receive Senate 
campaign reports as a custodian for the Federal Election 
Commission (FEC). The Secretary is required to forward Senate 
campaign reports to the FEC within two working days upon 
receipt.
    Since the enactment of the Federal Election Campaign Act of 
1972 FECA, the Secretary's Office of Public Records has been a 
filing location for Senate FECA documents which have been 
submitted by Senate candidates in paper form. In response to 
the Committee's inquiry, I can confirm for you that House 
candidates file their reports directly with the FEC.
    From our observations, many Senate campaign filers already 
use the FEC's electronic system to prepare their reports, only 
to then print the pages for delivery to the Office of Public 
Records. In addition to filing with the Office of Public 
Records, Senate candidates also have the option of voluntarily 
filing electronically with the FEC, which makes those 
electronic reports available as unofficial Senate electronic 
filings.
    A few filers take this additional step of voluntarily 
submitting their campaign reports electronically.
    My office takes seriously its responsibility to implement 
Senate policy in an effective and cost efficient manner. To 
date, Public Records has developed a processing system that 
involves accepting and date stamping reports, copying the date 
stamp on the report's mailing envelope as requested by the FEC, 
scanning and indexing those reports, then making them available 
to the public as soon as possible, usually the following day 
through an internal database that can be viewed on public 
terminals in 232 Hart Senate Office Building.
    Despite the fact that the statute allows the Office of 
Public Records two days to transmit reports to the FEC, reports 
are typically transmitted to the FEC the same day they are 
received. Our office also stores and archives the reports.
    Over the years the Office of Public Records has streamlined 
this process utilizing a high volume scanner and transmitting 
reports to the FEC over an internet connection instead of 
relying on a T-1 telecom line, saving our office $5,000 a year. 
Despite using the most modern tools available, the processing 
of paper documents remains labor intensive.
    As you know, the size of FEC reports varies during the 
election and non-election years. In 2010, Public Records 
processed 6,410 total reports consisting of 522,210 pages. One 
report alone exceeded 9,000 pages. In 2011, a non-election 
year, the numbers decreased to 3,486 filings and 223,734 pages. 
Since the first of this year, Public Records has processed 
1,955 reports and 157,032 pages.
    S. 219 requires all Senate candidates to file election 
campaign reports directly with the FEC. I understand that this 
would have the effect that candidates with more than $50,000 in 
contributions or expenditures would be required to file 
electronically with the FEC. As an officer of the Senate, the 
Secretary defers policy decisions to the Senate, and my office 
stands ready to implement this proposed change without delay 
should the Senate approve the measure.
    S. 219-related cost savings for the Office of Public 
Records would include staff hours of 1.5 Public Record staffers 
to process FEC reports. Such savings in labor hours would be 
beneficial to our operations, especially since we have been 
given new implementation responsibility under the STOCK Act, 
and our budget, like other legislative branch agencies, has 
been significantly cut.
    As you know, the STOCK Act will expand paper financial 
disclosure filings in the short term to include periodic 
transaction reports which will initially require scanning and 
indexing paper reports in a system similar to the current one 
used for FEC reports.
    The Sergeant at Arms, which provides technical support for 
the Office of Public Records' highly customized FEC and 
Lobbying Disclosure Act filing systems and databases, must 
periodically upgrade the FEC processing application for 
maintenance purposes. The last major upgrade of the system took 
four months of staff time from Sergeant at Arms technical 
staff. Elimination of the current FEC processing system and 
database would result in Sergeant at Arms manpower savings and 
would allow that organization to redirect resources and 
manpower to our joint effort to build an electronic financial 
disclosure system.
    Again, I appreciate the opportunity to share information on 
the important work of our Office of Public Records. Our office 
has appreciated the support of the Committee over the years on 
a variety of issues. And in particular, I want to express my 
appreciation for your support as we implemented new electronic 
lobbying filing requirements under the Honest Leadership Open 
Government Act.
    We stand ready to implement S. 219 if enacted. Thank you.
    [The prepared statement of Ms. Erickson is included in the 
record]
    Chairman Schumer. Thank you, Madam Secretary. And now we 
will hear from Mr. Ryan.

       STATEMENT OF PAUL RYAN, THE CAMPAIGN LEGAL CENTER

    Mr. Ryan. Good morning, Mr. Chair, distinguished Committee 
members. Thank you for this opportunity to provide my views 
this morning on S. 219, the Senate Campaign Disclosure Parity 
Act. I have submitted more detailed written testimony for the 
record.
    The improvement in Senate-related campaign finance 
disclosure that would result from the passage of S. 219 is long 
overdue and the Campaign Legal Center strongly supports this 
bill.
    All or nearly all federal candidates and political 
committees compile their campaign finance data using computers 
and sophisticated software. Computerization of this data 
collection process has been the norm for more than a decade. 
Nearly all candidates for the House of Representatives and the 
Office of President, and nearly all federal political 
committees, also file their campaign finance disclosure reports 
electronically directly with the FEC.
    This data is then made available to the public quickly in a 
searchable format via the FEC's website typically within 24 
hours. Senate candidates, however, willfully remain stuck in 
the Dark Ages, filing their disclosure reports on paper and 
denying the public timely access to the information that the 
Supreme Court has repeatedly recognized as being vital to 
democracy.
    In Citizens United v. FEC, for example, eight of the 
Supreme Court's nine justices upheld a challenge disclosure law 
and stressed the importance of timely disclosure, noting that 
``modern technology makes disclosure rapid and informative.'' 
The Court continued, ``with the advent of the internet, prompt 
disclosure of expenditures can provide shareholders and 
citizens with the information needed to hold corporations and 
elected officials accountable for their positions and 
supporters. This transparency enables the electorate to make 
informed decisions and give proper weight to different speakers 
and messages.''
    Though modern technology and internet undoubtedly make 
rapid and prompt disclosure possible, the Senate has, for more 
than a decade, refused to utilize such technology. Under 
current law, senators compile their campaign finance data 
electronically, but then nonsensically hit the print button and 
file their disclosure reports with the Secretary of the Senate 
in paper format.
    The reports are then scanned into an electronic format and 
delivered to the FEC, which then prints the reports once again 
and reportedly spends more than $400,000 per year paying people 
to convert this data back into a searchable digital format 
that's eventually uploaded to the FEC's website and finally 
made accessible to the public.
    This process can take weeks and may deny voters the 
important campaign finance data critical to their decision 
making on election day until after election day. What reason 
can the Senate possibly have for clinging to the archaic paper-
based disclosure system? Unless the Senate's goal is to deny 
voters important information and waste millions of taxpayer 
dollars in the process in this time of fiscal crisis, the 
Campaign Legal Center can fathom no excuse for the Senate's 
continued refusal to mandate electronic filing of campaign 
finance disclosure reports.
    S. 219 presents a simple tax dollar saving fix to the 
Senate's broken disclosure system. Under S. 219, Senate 
candidates and committees would file campaign finance 
disclosure reports electronically with the FEC by the same 
rules applicable to all other federal political committees and 
candidates. Enactment of S. 219 would save candidates and 
committees the printing costs of this present paper-based 
system and would save taxpayers the needless expense of turning 
those paper reports back into digital searchable format.
    More importantly, enactment of S. 219 would bring Senate-
related campaign finance disclosure in step with the rapid, 
prompt and effective disclosure promised to voters by the 
Supreme Court in Citizens United, ``enabling the electorate to 
make informed decisions and give proper weight to different 
speakers and messages.''
    We call on the Senate to schedule an up or down vote on S. 
219 immediately and to pass this long overdue legislation. 
Thank you again for this opportunity to testify before you 
today.
    [The prepared statement of Mr. Ryan is included in the 
record]
    Chairman Schumer. Well, thank you. And I want to thank both 
of you. As a testament to the completeness of your testimony 
and the need for this bill, and I think its lack of 
controversy, I do not have any questions. Senator Alexander?
    Senator Alexander. I thank both witnesses for their 
testimony, and neither do I have questions.
    Chairman Schumer. Senator Udall?
    Senator Udall. I am on the same wave length as both of you 
and very much appreciate the witnesses being here. And I 
appreciate our Secretary of the Senate, who does a very, very 
good job for us.
    Chairman Schumer. I agree with those kudos. Okay, so I 
believe this legislation is something we can get behind. I am 
going to work with my friend, Senator Alexander, to move it 
quickly out of committee and through the Senate. Obviously, if 
there are similar provisions that have the same kind of 
bipartisan support, I would have no objection to hearing--doing 
them all together, and my guess, without having talked to him, 
neither would Senator Reid.
    So, without objection, the hearing record will remain open 
for 10 business days for additional statements and documents 
submitted for the record. We also request that our witnesses 
respond in writing to additional written questions from 
Committee members.
    I want to thank my colleagues, Senator Udall, Senator 
Alexander, as well as Senator Tester, for being here. The 
hearing is now adjourned.
    [Whereupon, at 10:00 a.m., the Committee was adjourned.]



                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
